<html>
<title> - FIGHTING CRIME AND VIOLENCE IN THE DISTRICT OF COLUMBIA: CAPITAL PUNISHMENT AS A DETERRENT</title>
<body><pre>[Senate Hearing 105-345]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-345


 
   FIGHTING CRIME AND VIOLENCE IN THE DISTRICT OF COLUMBIA: CAPITAL 
                       PUNISHMENT AS A DETERRENT

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON OVERSIGHT OF

                 GOVERNMENT MANAGEMENT, RESTRUCTURING,

                      AND THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 30, 1997

                               __________

      Printed for the use of the Committee on Governmental Affairs



                               <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 40-459 cc                   WASHINGTON : 1998
_______________________________________________________________________
           For sale by the U.S. Government Printing Office, 
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
WILLIAM V. ROTH, JR., Delaware       JOHN GLENN, Ohio
TED STEVENS, Alaska                  CARL LEVIN, Michigan
SUSAN M. COLLINS, Maine              JOSEPH I. LIEBERMAN, Connecticut
SAM BROWNBACK, Kansas                DANIEL K. AKAKA, Hawaii
PETE V. DOMENICI, New Mexico         RICHARD J. DURBIN, Illinois
THAD COCHRAN, Mississippi            ROBERT G. TORRICELLI, New Jersey
DON NICKLES, Oklahoma                MAX CLELAND, Georgia
ARLEN SPECTER, Pennsylvania
             Hannah S. Sistare, Staff Director and Counsel
                 Leonard Weiss, Minority Staff Director
                    Michal Sue Prosser, Chief Clerk

                                 ------                                

SUBCOMMITTEE ON OVERSIGHT OF GOVERNMENT MANAGEMENT, RESTRUCTURING, AND 
                        THE DISTRICT OF COLUMBIA

                    SAM BROWNBACK, Kansas, Chairman
WILLIAM V. ROTH, JR., Delaware       JOSEPH I. LIEBERMAN, Connecticut
ARLEN SPECTER, Pennsylvania          MAX CLELAND, Georgia
                        Ron Utt, Staff Director
      Laurie Rubenstein, Minority Staff Director and Chief Counsel
                      Esmeralda Amos, Chief Clerk



                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Brownback............................................     1
    Senator Lieberman............................................     3
    Senator Cleland..............................................     4

                               WITNESSES
                       Wednesday, April 30, 1997

Hon. Kay Bailey Hutchison, a U.S. Senator from the State of Texas     5
Tracie Gibson, Widow of District of Columbia Officer Brian Gibson     7
Stephen D. Harlan, Vice Chairman, District of Columbia Financial 
  Responsibility and Management Assistance Authority.............    11
Gary Mather, Senior Vice President, Booz-Allen and Hamilton, Inc. 
  accompanied by James Stewart, Principal, Booz-Allen and 
  Hamilton, Inc..................................................    14
Larry D. Soulsby, Chief of Police, District of Columbia Police 
  Department.....................................................    16
Hon. Eugene N. Hamilton, Chief Judge, Superior Court of the 
  District of Columbia...........................................    18
Robert Moffit, Deputy Director for Domestic Policy Studies, The 
  Heritage Foundation............................................    29
C. Stephen Wallis, Washington, D.C. Area School Administrator....    31
Carol Schwartz, District of Columbia City Council Member.........    37
Rev. H. Beecher Hicks, Jr., Senior Minister, Metropolitan Baptist 
  Church.........................................................    39

                     Alphabetical List of Witnesses

Gibson, Tracie:
    Testimony....................................................     7
Hamilton, Hon. Eugene N.:
    Testimony....................................................    18
    Prepared statement with attachments..........................    89
Harlan, Stephen D.:
    Testimony....................................................    11
    Prepared statement...........................................    50
Hicks, Rev. H. Beecher, Jr.:
    Testimony....................................................    39
    Prepared statement...........................................   156
Hutchison, Hon. Kay Bailey:
    Testimony....................................................     5
    Prepared statement...........................................    47
Mather, Gary:
    Testimony....................................................    14
    Prepared statement...........................................    61
Moffit, Robert:
    Testimony....................................................    29
    Prepared statement...........................................   125
Schwartz, Carol:
    Testimony....................................................    37
    Prepared statement...........................................   153
Soulsby, Larry D.:
    Testimony....................................................    16
    Prepared statement...........................................    79
Wallis, C. Stephen:
    Testimony....................................................    31
    Prepared statement...........................................   149

                                APPENDIX

Prepared statements of witnesses in order of appearance..........    47
Article in The Washington Post,'' by Stephen D. Harlan, dated 
  April 27, 1997, page C07, entitled ``We Can Cut Crime.''.......    58
Senator Paul Strauss, Shadow U.S. Senator elected by the Voters 
  of the District of Columbia, prepared statement................   161
Senator Florence Howard Pendleton, U.S. Senator/ns District of 
  Columbia, prepared statement...................................   166


                   FIGHTING CRIME AND VIOLENCE IN THE
                     DISTRICT OF COLUMBIA: CAPITAL
                       PUNISHMENT AS A DETERRENT

                              ----------                              


                       WEDNESDAY, APRIL 30, 1997

                                       U.S. Senate,
       Oversight of Government Management, Restructuring,  
                       and the District of Columbia Subcommittee,  
                          of the Committee on Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:06 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Sam 
Brownback, Chairman of the Subcommittee, presiding.
    Present: Senators Brownback, Lieberman, and Cleland.

             OPENING STATEMENT OF SENATOR BROWNBACK

    Senator Brownback. We will go ahead and start this hearing. 
It is the fourth in our series of oversight hearings on how 
Congress can effectively work with the District of Columbia to 
help solve some of the major problems facing our Nation's city, 
Washington, DC.
    I would like to start this hearing off, if I could, 
recognizing a terrible tragedy that has taken place in this 
city with the death of three police officers this year in the 
District of Columbia, which I hope causes us all to pause and 
to think just what has happened here, of what has occurred. We 
will hear testimony from Ms. Gibson, her husband of course 
involved in one of those tragedies earlier this year.
    But I would hope we could just pause and reflect and think 
about these three officers killed in the line of duty. Officer 
Brian Gibson, survived by his wife, Tracie Gibson, who has 
joined us here today, with her two children, Brian Gibson, aged 
14 months, and Ashley Gibson, aged 11 years old. Officer Oliver 
Wendell Smith, survived by his wife, Shandra Smith, and Oliver 
Wendell Smith, II, 5 years old. Officer Robert Johnson, Jr., 
survived by his wife Yvette, Robert Johnson, III, 4 years old, 
and Ryir Johnson, 5 months old. Of course, he was just killed 
over the weekend in a terrible incident that took place that I 
hope we will hear some more about.
    I hope everybody in the crowd would be willing to join me 
in a moment of silence and, for people of faith, if they would 
join me in a moment of silent prayer for these three patriots 
of our country that have fallen in the line of duty.
    [Pause.]
    Senator Brownback. Thank you.
    This is perhaps the District's most serious problem--
exceptionally high crime rate--that has cost hundreds of 
citizens their lives, the three police officers that we just 
recognized, two of which were people that were actually pursued 
by criminals that went after them to shoot them, and to do them 
harm, and to kill them. We have had a crime wave in this city 
that has affected thousands of residents and businesses, that 
have fled the city, further weakening the city's economy and 
financial well-being.
    I have to tell you, on another personal note, that three of 
my staff members have been victimized, two of them burglarized 
and one a car broken into, during this past year in Washington, 
DC.
    Now I do take heart in some of the impressive recent 
actions that happened by the Control Board and what they have 
stepped in with, and their partners in the Memorandum of 
Understanding that has occurred. Still, you look at the overall 
factual situation of crime in the District of Columbia since 
1985, homicides have risen 169 percent, robberies up 50 
percent, and auto theft by a staggering 500 percent.
    I hope and pray we are at the Nation's high water mark for 
the amount of violent crime taking place in our country and in 
our Nation's capital because it hurts our citizens, and it 
hurts our schools, it hurts our communities unbelievably.
    I am heartened by some of the initiatives undertaken by 
mayors like Mayor Guiliani of New York City. We are now seeing 
a recent example of very successful urban crime fighting that 
has proven results as Mr. Harlan noted in a recent op-ed piece, 
New York City has reduced major crime by 39 percent since 1993 
and homicides have been cut in half.
    There has been a successful implementation of the District 
partnership in a Memorandum of Understanding. There has been 
some immediate and decisive action that has happened in the 
District of Columbia which I am very pleased to see. They have 
targeted high crime neighborhoods, and put an additional 400 
police officers on the streets. The results have been equally 
swift and decisive. March arrests are up 72 percent. Some 
measures indicate that crime rates are falling.
    This is a good start, but much more needs to be done.
    Today we will be looking at additional steps that can 
dramatically reduce the District's crime rate, including an 
increase in the penalties for committing crime--particularly 
crime towards police officers.
    I have to pause once again. This is almost unimaginable to 
me, that people would go out and actually pursue police 
officers to do them harm, to kill police officers. What has 
happened in this society that we actually have that occurring--
and in our Nation's capital. We have got to take decisive 
action to move forward on that. I hope the city does. We will 
be hearing from the city about that.
    The first panel of witnesses have such a proposal in front 
of us, I wanted to have them here to speak to us on the Officer 
Brian Gibson District of Columbia Police Protection Act. We 
will also hear from other members of the City Council and from 
the Police Department. But I hope we pause and we thank the 
people that have served and we ask, What can we do now?
    I would like to turn it over for an opening statement from 
Senator Lieberman, the ranking minority, who has an equal 
passion and care for what is happening here, as well. Senator 
Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thank you, Mr. Chairman, and thanks and 
congratulations to you on the leadership that you have shown 
through this Subcommittee in trying to focus the attention of 
the Senate and Congress more generally on the problems of the 
Nation's capital in a way that is constructive, that is open to 
new ideas in responding to these problems, and, most of all, 
that tries to build a sense of partnership with the people who 
live in and govern, and in this case, police our Nation's 
capital, to see if together we cannot make all of this better.
    As you indicated, the numbers here on crime, except for the 
recent statistics, are not good. We all have an interest, those 
who live here permanently and those of us who live here part of 
the time, in seeing those numbers improve. From 1985 to 1996 
homicides in the District rose 169 percent. Robbery increased 
by 50 percent. Assaults were up 39 percent, and motor vehicle 
theft skyrocketed by 490 percent.
    Mr. Chairman, for too long residents of too many of the 
District's neighborhoods have lived in fear. And for too long, 
these residents have watched that crime rate rise, even as it 
has decreased in most of the Nation's other major cities. 
Something has happened to many people here in the District to 
cut them from the ties that bind most of the people of the 
District--and most of the people throughout the country--
together in a sense of community and shared values.
    To me nothing demonstrates this problem more than the 
disproportionate, devastating rate with which this city has 
watched its police officers targeted and senselessly murdered. 
Since late 1994, eight D.C. law enforcement officers have been 
slain. That is a number that is so riveting that the beginning 
of a response to it is just the moment of silent prayer that 
you called for, Mr. Chairman, and then the continuation has to 
be a collective cry to stop this from occurring.
    To say the obvious--and maybe I am getting to a point where 
I am old-fashioned--but we must never lose the sense that we 
are all together in this, that the police officers are 
representing us, that every morning that a police officer puts 
on his uniform as Officer Gibson did, that officer is going out 
to represent us. He or she is protecting us.
    The idea that someone would turn on them use to be 
unthinkable. But for too many people, the police officer has 
become them as against their ``us.'' The truth is, we are all 
together, and we have got to revive that fundamental sense that 
the laws are adopted to protect all of us, that police officers 
are sent out there every day to do a job for us. And when they 
are assaulted or murdered, it is as if we have been assaulted 
and part of us has been murdered.
    That is why we cry out with the kind of anger that people 
in the District have, that those of us who live here have, live 
here as Members of Congress, and why I understand very well the 
feelings that motivate Senator Hutchison in bringing this 
legislation before us today.
    So we look forward to hearing her testimony, and I thank 
Ms. Gibson for her courage in honoring her husband's memory by 
coming forward and speaking to us from her heart and her own 
history and experience. I look forward to the witnesses who 
will discuss the recent Booz-Allen report, which made some very 
bold suggestions about how to improve law enforcement here in 
the District.
    The recent statistics, as the Chairman indicated, have been 
encouraging. That is for a 5- or 6-week period most recently 
reviewed. Our hope and prayer is that we stick with this and we 
hang in there and that we, in Congress, give you as much 
support as we can to make this happen.
    I note with some admiration the statement made by Senator 
Faircloth earlier in the week about his own willingness to 
support a significant increase in the compensation for District 
police officers, as a way not just to express our fair 
gratitude and express it with fair compensation, but also to 
hopefully build the kind of morale and the continuation of 
service here by officers, too many of whom have gone on to 
other police departments where the pay is higher.
    This is an important afternoon for the District of 
Columbia. It is also very important for Congress. And because 
this is America's city, it is important for our whole country. 
So I look forward to the testimony and thank all of you who 
have taken time to be with us.
    Thank you, Mr. Chairman.
    Senator Brownback. Thank you, Senator Lieberman. Senator 
Cleland.

              OPENING STATEMENT OF SENATOR CLELAND

    Senator Cleland. Certainly, Mr. Chairman, thank you very 
much. I would like to make an opening statement.
    It is a pleasure to be with you here. I am sorry it has to 
be on the subject of crime that has taken the toll of the lives 
of actual people. As someone who has worn the uniform in the 
military, I can say to you that it is not fun being a target. I 
think more and more of our law enforcement officers around the 
Nation feel that they are.
    Ms. Gibson, we are delighted to see you here and maybe 
something positive can arise out of this tragedy. Senator 
Hutchison, nice to see you, and nice to be with all of you.
    I have no magic answer for solving crime in the country or 
in D.C. I will say that, as a State Senator in my home State in 
the early 1970's, I supported the death penalty and still do. I 
support the death penalty for killing of police officers.
    I think the question of crime is probably a lot deeper than 
that. I notice that with testimony that will be delivered to us 
later today, I do not want to steal anybody's thunder, but the 
Heritage Foundation indicates that between 1988 and 1992, one-
fifth of all persons arrested for killing a police officer were 
on probation or parole at the time of the offense. So I think 
we have to look at our parole policies, and probation policies.
    I also note that the recent New York Times article said 
that a group of criminologists at the University of Maryland 
reported to Congress, after evaluating the effectiveness of 
various crime prevention programs, they found that many popular 
approaches to crime, including expanded prison construction, 
have had little impact in reducing crime, that most Federal 
programs have been undertaken with minimal evaluation.
    It did indicate some promising results from programs such 
as intensified police patrols--which has been recommended by 
more than just that group, intensified police patrols in high 
crime areas; drug treatment programs in prisons; and early 
intervention on behalf of infants in troubled families.
    I would just say, Mr. Chairman, there are some good 
testimony to be offered today before this Subcommittee. I have 
read some of it. We just appreciate you convening this group 
and this Subcommittee, so hopefully the actions that we take 
can mitigate crime not only in D.C. but around the country, and 
that hopefully we can find some links between criminal behavior 
and the killing of police officers that hopefully will save the 
lives of police officers in the future.
    Thank you for your testimony today and we thank you for the 
time, Mr. Chairman. Thank you.
    Senator Brownback. Thank you, Senator Cleland. Senator Kay 
Bailey Hutchison, thank you for your interest in this topic, 
and the floor is yours.

 TESTIMONY OF THE HON. KAY BAILEY HUTCHISON,\1\ A U.S. SENATOR 
                    FROM THE STATE OF TEXAS

    Senator Hutchison. Thank you, Mr. Chairman. I want to thank 
you for calling this hearing because I think it is important 
that we do everything that we can to protect the police 
officers who put their lives on the line for all of us every 
day.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Hutchison appears in the 
Appendix on page 47.
---------------------------------------------------------------------------
    After the senseless tragedy in February that cost Officer 
Brian Gibson his life, I introduced this bill and named it in 
his honor, the ``Officer Brian Gibson District of Columbia 
Police Protection Act.'' I introduced this bill because I 
believe it is of utmost urgency that we let the officers know 
that they are going to have every protection that we can give 
them.
    Right now 38 States have the death penalty. Virginia has 
it. Maryland has it. The Capitol Police Corps has it. The only 
people in this entire area who do not have the protection of 
the death penalty for an assailant are the District of Columbia 
police officers. I do not think that is right. I think it is an 
inequity that must be changed.
    I want to read to you, just briefly, the circumstances of 
the three police officers who have been killed since February 
of this year. Brian Gibson was in his patrol car in uniform. 
The killer had been bounced from a bar by an off-duty 
policeman. He walked up to Mr. Gibson's patrol car and shot him 
in the head in cold blood.
    D.C. Officer Wendell Smith was killed at his home in Prince 
George's County, Maryland in February. He was in civilian 
clothes. His murderer was laying in wait and killed him as he 
got out of his car.
    D.C. Officer Robert Johnson, who was killed just last 
Saturday, was waiting outside the police station with another 
officer after work. The officers identified themselves to the 
murderer as policemen. The murderer then attacked both of them, 
killing Mr. Johnson and injuring the other officer.
    My point, Mr. Chairman, is that none of these three 
officers were killed in a crime of passion. These were 
premeditated murders of people because they were police 
officers. Now I think if you can ever make the argument that a 
death penalty is a deterrent, it is in a case where someone is 
assailed in cold blood just because he is a police officer. 
That is why I think it is so important that we look at this 
protection for our D.C. officers.
    Now I think that the other point that we must make about 
this bill is that there is a disagreement about whether it 
should be Congress that does this. I talked to the Mayor of the 
District of Columbia and to Council Member Schwartz about this 
issue. They believe, as I would expect them to, that they 
should have the right to do this.
    I agreed to step back. I want to go forward with the 
process so that I will not lose the ability to do this if the 
District does not act first. But I will give them the 
opportunity to act first. I am happy to do that.
    But if they are not able to do it in the next couple of 
months, before they go out of session in the summer, I do 
believe it is our responsibility as Congress, as it was given 
to us specifically in the Constitution, to make sure that this 
city functions and that we have a safe city for the people who 
live here, and for all Americans. This is our capital city. It 
belongs to all of us. We fund part of it as well, and it is 
only a minor part of our responsibility that we would make sure 
that this city runs well.
    That is why I am joining with others to increase the 
District officers' pay. I think that is another step that we 
must take. I questioned the Chief very closely about whether 
the officers have the bullet proof vests that they needed and 
whether they have the cars in operating condition. I think we 
have got to assure that they have all of the protections, 
including the death penalty for someone who would shoot them in 
cold blood, as the last three officers have been murdered.
    So I am willing to work with the District in every way. I 
applaud the Mayor and Ms. Schwartz for coming forward and 
agreeing with me on the merits of this bill, though not 
agreeing that it should be Congress' prerogative. Nevertheless, 
I believe the buck stops with us.
    So, if the District is not able to act, I think it is our 
responsibility to give these officers the protections that they 
so richly deserve. Furthermore, it will be in all of our best 
interest because public safety will be better if they do have 
those protections.
    I truly believe, in my heart, that some of these officers 
would not have been killed if someone had known that they would 
face the death penalty. That is why I am going to pursue this 
from my heart.
    Thank you, Mr. Chairman. I am most pleased that, since I 
have named this bill in honor of Officer Gibson, that his widow 
is with us today to also provide testimony for the record.
    Just as a personal aside, I want to say that I watched this 
whole process after the killing of Officer Gibson, and I was 
moved by the dignity that Tracie Gibson showed. She was 
poignant in her grief, and I think that she has shown much 
courage and much commitment to be with us today to show her 
support so that no other woman or man in this city will ever 
have to face what she did.
    Thank you, Mr. Chairman.
    Senator Brownback. Thank you very much, Senator Hutchison, 
and for your interest in this issue.
    Ms. Gibson, I do not know if anybody could have introduced 
you any better than what Senator Hutchison did, nor think of 
you any higher. Thank you for your courage and your willingness 
to be here in front of us today. The floor is yours.

   TESTIMONY OF TRACIE GIBSON, WIDOW OF DISTRICT OF COLUMBIA 
                      OFFICER BRIAN GIBSON

    Ms. Gibson. I would first like to thank, from the family, 
Senator Kay Bailey Hutchison for introducing the bill in my 
husband's name. I would like to thank you.
    My name is Tracie Gibson. On February 5, 1997, the date of 
my fourth wedding anniversary, will forever be etched in my 
mind as one of the worst days of my life and the life of my 
family and my friends. When my husband left for work on the 
evening of February 4, nothing could have prepared me for that 
dreadful awakening that I was to receive at 3 a.m. that 
morning.
    My husband, Master Patrol Officer Brian Theodore Anderson 
Gibson, and I had laid out plans for our future and the future 
of our two daughters and our other plans for other kids. These 
plans will never be realized. My life and the life of my family 
members were traumatized to the extent that I doubt that we 
will ever be the same.
    His parents were left without their son, his sister without 
her only brother, his daughters without their father, and me 
without my husband. My youngest child will never know the love 
that her father had for her. She will only know what we tell 
her about her dad. Our oldest daughter will continue special 
counseling until it is felt that she can again function day-to-
day in a normal fashion.
    Life is precious and each and every human is entitled to 
live his or her life to the extent that is granted by God. No 
human should be murdered the way that Brian was murdered. He 
was doing the job that he had dreamed of doing and he was an 
outstanding officer. He exhibited pride and honor in his chosen 
career.
    My husband realized that his job was hazardous and 
dangerous. However, he was doing what he wanted to do in life. 
He was proud of the protection that he was providing to the 
citizens of this city. His family and friends were also very 
proud of him.
    Any human found guilty of murder in the first degree must 
face the death penalty, especially if the murder caused the 
death of a public servant who is providing protection for the 
citizens of any municipality.
    I cannot understand how citizens could feel that one public 
servant's life carries more importance than another public 
servant's life. Had my husband been a Federal officer murdered 
on the exact same street that Brian was murdered on, we would 
not be here today asking that justice be done in that instance, 
and in two similar instances since Brian was murdered.
    No one should feel that he or she can walk up to another 
human being, take his or her life, and feel that there is a 
possibility to walk the streets as a free person again. There 
is something that is not human about this current process.
    A message must be sent that there is a price and a penalty 
to be paid when you take a person's life and that victims are 
indeed given consideration when preyed upon by criminals.
    I thank you for offering me this opportunity and time to 
express some of my feelings as I attempt to go on from here 
with what is left in my life. Thank you.
    Senator Brownback. Thank you very much, Ms. Gibson.
    Senator Hutchison, I have supported the death penalty in 
the most heinous of crimes and I certainly consider it to be 
applicable in this situation, where police officers would be 
stalked and hunted by others in this society. But I have to 
back up and just wonder, what is going on when over a period of 
4 months in our Nation's capital, if the allegations are 
accurate and it certainly seems like the factual basis is very 
strong, three known police officers defending the rest of us 
were stalked and hunted down for representing the safety of the 
rest of us.
    What is going on here that would cause that sort of 
mentality?
    Senator Hutchison. I think that is what makes this the most 
heinous of crimes. You know, it is one thing when there is a 
shoot-out where there is a crime of passion. But these were 
cold-blooded, premeditated murders. I think that does make us 
pause, and I think it means that we must address the issue that 
someone would be so cavalier that they would, in a cold-blooded 
way, murder police officers because they are police officers.
    I think that it means we have got to address that issue. 
And I think the fact that there is the death penalty in every 
other part of this area, and that only the D.C. police officers 
are in this situation, adds to the urgency that I have to make 
sure that they have the protection. You do not see this kind of 
statistic with the Capitol Police, who have this protection; or 
in the near areas of Virginia or Maryland. It is something that 
I think we must address and it is why I am pursuing this after 
the District has its opportunity.
    I am going to go right up through the process, until we can 
go to the Senate floor, if this Subcommittee will vote out the 
bill. I do not want to lose my rights and my time, although I 
will defer to the District if they would like to move forward 
first. But I do not think we can leave these people hanging out 
there without their protection. It is not right and it is an 
abrogation of our responsibility.
    Senator Brownback. So you would like to see us vote this 
bill on forward and keep it moving forward in a timely fashion, 
even though you are willing to agree to some time frame for the 
District itself to decide? Have you articulated a time frame 
that you would like to see the District of Columbia act by?
    Senator Hutchison. I believe if the District turns this 
bill down sometime between now and July, when they go on their 
summer recess, then I want to be able to act immediately to go 
forward on this bill. If they are still in the process right up 
until July 5 or July 6, or whenever they go out, and they have 
not acted at that time, then I want to pursue this bill with 
great urgency.
    I do want to give them a reasonable amount of time, and 
they certainly have been on notice of what I wanted to do since 
February. I will give them that deference. But after that, I 
think our responsibility takes precedence. And it is our 
responsibility to assure that this city runs and I want to work 
with the city in every possible way.
    But I think the fact that the Mayor and Council Member 
Schwartz at least are sponsoring this, shows that they, too, 
see that this is something that is just right. And I hope that 
we can come together, if they are not able to do it at the 
District level, and move forward.
    Senator Brownback. Ms. Gibson, do you have any thoughts on 
this, whether it should be done in the Senate or the City 
Council?
    Ms. Gibson. No, I think that the Council should be given 
the opportunity and it depends on what they do with that 
opportunity, but I agree with the Senator.
    Senator Brownback. Good. Senator Lieberman
    Senator Lieberman. Thanks, Mr. Chairman.
    Your question to Senator Hutchison, of course, is just at 
the heart of it all, your first question, which is why would 
people do this? I tell you, we had a hearing a week or so ago 
about the District's school system. Just before that hearing, 
tragically, there was an incident with sexual activity among 
kids in the third and fourth grade.
    And I think we both had the sense that this is a sign of 
accumulation of the many ways in which we are victimizing our 
children and that, in some measure, it is just civilization 
hitting the bottom. I think that happens when a police officer 
is targeted, too, because a police officer is the symbol of 
authority.
    And as you pointed out, Senator Hutchison, we are not 
talking here about a police officer in pursuit or a crime of 
passion. These murders, in some measure, were assassinations. 
These were intentional acts of murder directed against 
individuals either because they were police officers, in the 
case of Officer Gibson, or knowing that they were police 
officers. That is why we all, in some sense, have become numb 
to crime.
    I have a neighbor at home in Connecticut who said if this 
many people were killed by a foreign enemy, we would be on the 
verge of dropping nuclear weapons on them. It would be that 
devastating to us. And yet in some sense, because this happens 
day after day throughout our country, we get numb to it.
    What we are saying here, because of the extremity of these 
acts against police officers, that it stuns us and it stuns us 
in a way that all other crimes should, but this one really 
stuns us so we try to react.
    Incidentally, as far as my staff can determine, the numbers 
here for these intentional murders of police officers are not 
approached by any other major city in the country. There are 
other cases where police officers have been killed, in the last 
decade--nowhere near this number because they were a police 
officer.
    Senator Hutchison, let me just clarify----
    Senator Hutchison. Senator Lieberman, I really want to just 
reinforce what you said. They are assassinations, and that is 
what makes them so much more unbelievable.
    Senator Lieberman. Thank you. Let me clarify, and I am sure 
you believe this, your hesitancy about moving forward now has 
nothing to do with a concern about the legal authority of 
Congress to adopt the proposal you are making? It is your own 
sense of, if you will, comity or deference to the District, to 
give the District Government an opportunity to do this first?
    Senator Hutchison. That is exactly right, Senator. I think 
Congress has the absolute power. I think there is no question 
that it does. The framers of our Constitution wanted the 
capital city to be everyone's city. They wanted it to be 
America's city and they gave Congress the authority to make 
sure that it runs.
    Congress has granted home rule and therefore I want to give 
the Council every opportunity. But like every city has a State 
that sometimes the city does not agree with, we have much the 
same relationship. We are the State to the city and I think the 
city has some legitimate grievances against us, the State. But 
we also have some responsibilities that we must meet.
    So, I think we need to work together in everyone's best 
interest and only because I would like to give the city the 
opportunity to exercise home rule in this instance, I am going 
to step back. But I absolutely will not wait beyond that first 
part of July to move forward if it is not the will of the 
Council to do so.
    Senator Lieberman. I agree with you, and the analogy to the 
State is a good one, particularly now because we do have the 
Federal Government, in various forms, coming forward with 
reform proposals to assume some of the financial 
responsibilities that States have normally assumed for local 
city Governments which the Federal Government has not fully 
assumed previously for the District.
    Ms. Gibson, let me just ask you one question. Again, you 
are a very strong woman, and it gives us a sense of what your 
husband was like, although I did not have the honor to know 
him. He was a hero.
    We are going to hear from a lot of experts for the rest of 
the afternoon on ideas for what we might do to help to improve 
the quality of law enforcement and safety of citizens here in 
the District. You live here in the District. You have lived--
your husband was a police officer.
    If you want to now, or if you want to later by submitting 
something in writing, I am interested just to see whether you 
would have any thoughts for us as to what Congress or the 
District Government might do to protect police officers and 
improve the safety of residents in the District.
    Ms. Gibson. Well, one thing that comes to mind is to make 
sure that every police officer has all of the equipment that 
they are supposed to have, at a minimum, all the support. I do 
not think that they should have to reach back for anything. I 
think that everything should be right there at their 
fingertips.
    Definitely, the pay increase would help the morale, I would 
think. There are a few other things, and I would not mind 
putting them in writing, but something like the death penalty 
bill, I think, would make the officers feel as if they have the 
support there from the Council and the Senate.
    I have a few other things----
    Senator Lieberman. That is a very helpful answer and I 
would welcome, and I am sure the Chairman would, any additional 
thoughts you would have in writing after the hearing. Thanks 
very much for being here.
    Ms. Gibson. Thank you.
    Senator Brownback. Thank you both very much, and we 
appreciate it.
    Senator Hutchison. Thank you, Mr. Chairman. I do have a 
statement. I did not read it, but I would like for it to be in 
the record.
    Senator Brownback. Without objection, it will be. Thank you 
very much, both of you.
    The second panel will be Stephen Harlan, the Vice Chairman, 
District of Columbia Financial Responsibility and Management 
Assistance Authority; Gary Mather, Senior Vice President, Booz-
Allen and Hamilton, Incorporated; James Stewart, Principal of 
Booz-Allen and Hamilton; Larry Soulsby, Chief of Police, 
District of Columbia Police Department; and the Hon. Eugene N. 
Hamilton, Chief Judge, Superior Court of the District of 
Columbia.
    We have had some studies done on the District of Columbia 
police officers by the Control Board. We will hear information 
on them, and also from the Chief of Police and the Chief Judge.
    Thank you very much, gentlemen. I know you have a great 
deal of interesting information. I have been previously briefed 
on this. I believe Senator Lieberman was at the same briefing, 
on some of this information.
    What I would like to do is run the time clock on you at 5-
minute intervals. Can we keep it to 5 minutes, because we have 
such a large panel and I have a number of questions, and I 
think Senator Lieberman will, as well. So if you can take your 
comments, if you need to boil them down, we will take the 
written statements so that we have them in the record, and then 
have plenty of time for some question and interaction.
    Mr. Harlan, if you would care to start off, I hope you do 
not mind those parameters. If it is too strict, we will try to 
accommodate, but if you can, we would appreciate that. The 
floor is yours.

  TESTIMONY OF STEPHEN HARLAN,\1\ VICE CHAIRMAN, DISTRICT OF 
  COLUMBIA FINANCIAL RESPONSIBILITY AND MANAGEMENT ASSISTANCE 
                           AUTHORITY

    Mr. Harlan. Thank you, Mr. Chairman. I am delighted to be 
here. My name is Stephen Donald Harlan. I am Vice Chairman of 
the District of Columbia Financial Responsibility and 
Management Assistance Authority.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Harlan appears in the Appendix on 
page 50.
---------------------------------------------------------------------------
    In December, 1996, the Authority released a strategic plan 
that we had developed. Public safety was one of the two main 
critical concerns in the plan, along with others, but public 
schools and public safety were right at the top of the priority 
list.
    In December, also, the Mayor, the Chief of Police, the 
Chairman of the District Council, the Chief Judge of the 
Superior Court, and the Corporation Counsel, the U.S. Attorney 
and the Authority entered into a Memorandum of Understanding 
that you referenced in your opening remarks.
    One of the things that we decided to do early on was to 
work together as a group. Reducing crime, the fear of crime, 
and general disorder is something that requires a lot of 
coordination and a lot of interaction with other parts of the 
city, not just the police. But the police have a very major 
role in that.
    In December, we searched and identified a number of 
possible consultants to help us in this Memorandum of 
Understanding effort. On December 31, we hired Booz-Allen and 
Hamilton to be the consultant to the Memorandum of 
Understanding partners, the MOU partners. Booz-Allen started 
its work on January 6, 1997 and the task was such that we 
expected a report at the end of March.
    Because of the escalating crime, the defining event being 
the murder of Officer Gibson, the MOU partners decided not to 
wait until March. So, we encouraged Booz-Allen to bring forth 
the recommendations that it had at that time, and this was mid-
February, 1997. On February 26, based on the consultants 
recommendations, we implemented several changes in Metropolitan 
Police operations.
    What the consultant had found was many of the points that 
you raised. Crime and the fear of crime are unacceptably high 
within the District of Columbia, one of the highest if not the 
highest in the country. Less than 10 percent of the officers 
were working in scout cars. Two-thirds of the officers on the 
force had made 10 or fewer arrests in a year, and half of all 
officials made no arrests at all.
    Salary levels were extraordinarily low when contrasted to 
the surrounding jurisdictions, 14 percent below the average. 
Not the high point, but the average salary paid in the 
surrounding jurisdictions. The Police Department really was not 
organized effectively to deliver the necessary police services 
to the District of Columbia.
    The MOU partners concluded that bold action was required 
and must be taken immediately. We could not wait on further 
studies and things of this nature. One of the main points was 
empowering the Chief of Police. The Chief must have control 
over promotions and demotions. He must have the ability to 
remove non-performing officers and civilian employees. To that 
end, on February 26, 1997 the Mayor delegated his personnel, 
his purchasing, and his budgetary authority to the Office of 
the Chief of Police.
    The MOU partners also agreed that several crime fighting 
strategies should be implemented immediately. These strategies 
focused on the elimination of open air drug markets, 
elimination of violent crimes, the violence and disorder 
associated with some of the night clubs, and quality of life 
crimes, such as urinating in public and drinking alcohol in 
public, and traffic violations.
    Gary Mather of Booz-Allen and Chief Soulsby will report on 
the consultants baseline findings and some of the details of 
what has occurred since the police began the initiatives. 
However, I would like to report that the Chief has developed a 
new mission statement for the Police Department which calls for 
the Department to eliminate crime, fear of crime and general 
disorder, while at the same time establishing respect and trust 
for the police within the community.
    Before our work began, I had personally gone to each of the 
District commanders, all seven of them, and I asked what are 
you trying to accomplish. I had seven different answers. The 
Department needed a central core theme, or mission that 
everyone could understand; that could be repeated and repeated 
and repeated, and set that as the goal that we are trying to 
accomplish. The Chief has done that.
    He has established a new leadership team within the Police 
Department. He has promoted 39 sergeants, 21 lieutenants and 6 
captains. He has redeployed 400 sworn officers to deal with 
crime and the fear of crime and formed a Police Department 
internal team to work with Booz-Allen, the consultants to 
develop a new policing model.
    Already the Police Department has achieved several positive 
results, including a significant increase in the morale 
throughout the Department; an improvement in the community's 
perception of the Police Department's ability to target crime, 
the fear of crime, and general disorder; an increase in the 
number of arrests which you alluded to, which have more than 
doubled in the areas where we are targeting crime; and a 
decrease in the number of homicides for the first quarter of 
the calendar year, the lowest quarter reported in the last 10 
years.
    Mr. Chairman, I would be remiss if I did not take this 
opportunity to discuss the importance of the pay raise for the 
police officers. As I noted earlier in my testimony, police 
officers are paid an average of 14 percent less than the 
officers in the surrounding jurisdictions. Some officers in the 
surrounding jurisdictions are paid as much as 22 percent more 
than Metropolitan police officers.
    And yet the police officers in the District, the Nation's 
Capital, work in a difficult and dangerous environment, much 
more difficult and dangerous than some of the surrounding 
areas, placing their lives on the line every day. As we heard, 
in the first 4 months we have had three officers murdered.
    Chief Soulsby has proposed, and the MOU partners have 
agreed to a 10 percent pay raise for the police officers. The 
10 percent pay raise, costing a total of $8.8 million for the 
second half of fiscal year 1997, would bring the officers 
closer to the average pay of the surrounding jurisdictions. 
This pay raise, which would be tied to performance standards 
and work rule changes agreed to by the union, by the FOP, is 
important to sustain improved performance within the 
Department.
    All MOU partners are carrying out responsibilities of their 
own, though, to reduce crime and the fear of crime. We have all 
undertaken certain tasks. The Authority has the task of not 
only working with the consultants, and being the coordinator 
for this MOU group, but the Mayor has delegated his power; the 
Council has agreed to pass certain laws, for instance 
considering bail reform, laws to fund the cost of closing 
abandoned houses, and removing abandoned automobiles; the 
Superior Court is streamlining their processing procedures; the 
Corporation Counsel is training police; and the U.S. Attorney 
is providing training and considering night papering which 
requires prosecutors and judges to work at night.
    Senator Brownback. If you could, I hate to do this to you, 
Mr. Harlan, but if you could summarize the rest of your 
comments, I would appreciate that.
    Mr. Harlan. That is fine. These other gentlemen will focus 
on what has happened. But let me also say that we traveled to 
New York, Boston, and Chicago, I have personally, along with 
some of the other MOU partners, and I am convinced that this 
terrible crime crisis that we have right now can be fixed. It 
is doable. Other cities have done it. We can do it.
    I wrote an article that was published last Sunday in the 
paper, that you alluded to, and I am absolutely convinced that 
this can be done, and that we will do it with your support, and 
with the support of the Congress, and of the White House on 
various things that are needed.
    So with that, I will close summarize and take your 
questions when you are ready, sir.
    Senator Brownback. Thank you very much, Mr. Harlan.
    I would like to now turn to the Booz-Allen and Hamilton 
group, which did the investigation, appraisal, statistical 
gathering regarding the Police Department and its functioning. 
I do not know, Mr. Mather or Mr. Stewart, who would care to be 
the principal presenter? I am just going to lump you both 
together and still give you 5 minutes, so we are not going to 
give you 10.
    Mr. Stewart. I would yield my time to Mr. Mather.
    Senator Brownback. You will yield your 5 minutes, and 
together that is 5 minutes. If you could, just because both 
Senator Lieberman and myself have been briefed on this study so 
we have some good understanding on it. If you could, I think, 
hit the high points on it, then we will go to some questions.

TESTIMONY OF GARY MATHER,\1\ SENIOR VICE PRESIDENT, BOOZ-ALLEN 
  and HAMILTON, INC., ACCOMPANIED BY JAMES ``CHIPS'' STEWART, 
               PRINCIPAL, BOOZ-ALLEN and HAMILTON

    Mr. Mather. I am Gary Mather, Senior Vice President of 
Booz-Allen and Hamilton. I have overall responsibility for our 
firm's efforts to help transform the Metropolitan Police 
Department of the District of Columbia. With me is Chips 
Stewart, a former police executive and official of the 
Department of Justice.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mather appears in the Appendix on 
page 61.
---------------------------------------------------------------------------
    I think the Control Board recognized from the beginning 
that reducing crime involved more than just the Police 
Department and, as Steve talked about, the first step was the 
formation of a Memorandum of Understanding. I think the 
decision by the Board to include all these players was one of 
the key reasons why the current effort has been successful.
    Booz-Allen began work about 3 months ago, and let me just 
spend a few minutes summarizing the highlights of our progress. 
The initial phase of our project sought to do two things. 
First, we wanted to understand, from the MOU stakeholders, 
their objectives and points of view. Second, we wanted to 
develop a baseline or profile of the Department as it existed 
early this year.
    I think what we found was that the greatest concern of the 
stakeholders were the numbers of crimes committed in the 
District versus the Department's relative effective in reacting 
to crime. The purpose of the baseline survey was to delve into 
the Department and gather detailed and extensive data on how it 
was operating.
    First, the Department's mission. We recommended that the 
Department's mission should shift to concentrate on crime 
prevention and reduction and, as important, reduction of the 
fear of crime.
    Relationship with the community. We recommended that MPD 
needed to work proactively with the community in the 
development and execution of crime control strategies, much as 
many of the Nation's leading police departments are doing.
    Crime analysis. We recommended that crime control 
strategies must be a primary product of crime analysis at all 
levels of the Department and headquarters to the District 
level, and right down to the beat.
    Patrol deployment. At the time of the baseline survey about 
16 percent of the Department's sworn officers were available 
for patrol. The remaining officers were being used for a range 
of other activities, thereby being diverted from the core 
police function of street patrol. We recommended a massive 
reallocation of resources to triple the number of officers 
focused on patrol beats.
    Organization and staffing. We found many administrative 
jobs being performed by officers that could just as easily be 
outsourced or performed by civilians.
    Information and technology, infrastructure, equipment and 
facilities. We found that the Department had been 
undercapitalized for some time. We found that much of an 
officer's time is spent filling out reports. It takes 4 hours 
to book in this city, versus 15 minutes in some other areas, 
just because of information technology.
    Facilities have not received attention in years. They are 
in shambles and are a demoralizing factor for the officers.
    Performance management. We found that performance review of 
officers had not been done for 11 years and suggested that that 
be done immediately.
    The Department budget. The District of Columbia is our 
Nation's capital. In one sense, the city belongs to the 
citizens who live here, but many feel it also belongs to our 
country. We feel a vital question surrounds how the budget for 
the MPD is determined. Should it be determined by the economy 
and tax base of the local community or by what it takes to make 
the Nation's capital a safe place to live? We think it's the 
latter.
    Let me finish my testimony by reviewing a few key issues 
that have recently received public attention.
    First was the empowerment of the Chief's position, which 
Steve talked about.
    Next was building a team. The Department leadership team we 
encountered on day one was dysfunctional, riddled with politics 
and in basic disagreement on future directions for the 
Department. We recommended that the Chief choose a team that 
would share a common vision of the future and he did, and put 
that team in place. There had to be a clear demonstration that 
if the Department headed in the recommended direction it would, 
in fact, make a difference.
    Third, the Chief responded by assembling 400 officers, 
deploying them to the most crime-ridden sections of each 
district. As you will hear from the Chief, violent crime 
dropped dramatically and quickly.
    The fourth was compensation. Booz-Allen compared the 
compensation of MPD officers with that of officers in 
surrounding jurisdictions and the result was surprising, as 
Steve talked about. The job of the MPD officer is probably the 
most difficult in the region. The question arises, how can the 
Department possibly attract the best talent necessary to combat 
crime when potential officers can go to neighboring communities 
and make more? We recently appealed to the Office of Management 
and Budget for a $200 million infusion of capital to make up 
for failures to invest in the Department for many years.
    In discussing these deficiencies with Congressional 
staffers, we have been told the District of Columbia has no 
constituency when it comes to allocating money, except perhaps 
at the White House. It is said that there is very little 
mileage in spending money on the District, in contrast to back 
home where the votes are.
    The reply has to be someone has to take ownership, such as 
this Subcommittee, of the importance of our Nation's capital 
and how its condition affects the way the rest of the world 
perceives the United States.
    Let me close by noting where we are going. For the past 2 
weeks, Booz-Allen has hosted a working session at our McLean 
office for a team of 20 officers and civilians from the MPD. In 
about 2 weeks, the Department will begin a massive shift of 
resources to a deep focused operating model that will 
concentrate on crime prevention as the Department's No. 1 
priority. The number of street officers who work with the 
community on patrol will grow quickly from about 570 to more 
than 1,700.
    This major redeployment comes at the right time. We are 
about to enter the summer months when crime rates tend to be at 
the highest.
    It is also noted that the Department has been receptive to 
our recommendations for change and Chief Soulsby is clearly 
leading implementation. His dedication to this change has 
captured the attention and support of his colleagues in the 
ranks, as well as Booz-Allen.
    I would just like to close by saying the Control Board has 
made a delightful client. Thank you very much, Chips and I 
would be glad to answer any questions.
    Senator Brownback. Thank you very much. I appreciate that a 
great deal, and your timeliness, and it sounds encouraging with 
some of these things taking place.
    Mr. Soulsby is the Chief of Police. I know you have had a 
very, very tough few months here. Please tell us what you are 
planning for the future.

TESTIMONY OF LARRY D. SOULSBY,\1\ CHIEF OF POLICE, DISTRICT OF 
                   COLUMBIA POLICE DEPARTMENT

    Mr. Soulsby. Good afternoon, Senator Brownback and 
Subcommittee Members.
---------------------------------------------------------------------------
    \1\ The prepared statementof Chief Soulsby appears in the Appendix 
on page 79.
---------------------------------------------------------------------------
    I appear before this Subcommittee at a time of great trauma 
from the loss of our officers and a genuine promise of 
transformation within the Metropolitan Police Department.
    For many years the Department has not been structured to 
productively combat the forces of crime and violence in the 
Nation's capital, but I am pleased to testify that the 
Department now is in initial stages of transformation that will 
enable it to provide safe and secure neighborhoods throughout 
the city. Crime rates have begun to fall and will fall further.
    The transformation of the Metropolitan Police Department 
depends on the contributions of many parties. You have heard 
about the MOU partners, the key stakeholders who have set aside 
and laid down basic groundworks and set aside their 
personalities to help us achieve these goals. You have heard 
from the Booz-Allen and Hamilton consultants who have diagnosed 
many problems in the past and are helping us work our way 
through these problems.
    There is an initial role for Congress to play, I think, 
also. As I requested, in testimony last week before the Senate 
Appropriations Subcommittee, the Department must have a 10 
percent pay raise for the officers. There are many reasons I 
can go into this, but quite frankly, we are changing the entire 
dynamics of almost everyone in this Department. We have changed 
a lot of things and we are asking them to do tremendously more, 
and we need something to give back to them.
    I believe that obtaining--I am trying to skip through here 
to save time, sorry.
    We are at a juncture where all factors seem to be in 
alignment to propel us to the future are there. We think we can 
achieve great success but we need help. We need help on many 
areas. These factors include political will, citizen's demand 
for crime control reduction, the prospects of financial 
resources needed to obtain equipment and a pay raise are things 
that we must have to keep us moving forward.
    Let me describe briefly some of the transformation that we 
are going through. The process of transformation began when we 
signed the MOU partnership. The Department has always 
demonstrated a willingness to put aside their turf 
consideration, which in this city is a major accomplishment in 
and of itself.
    The most significant area of support provided the 
Department has been the Mayor's empowerment of the Office of 
Chief of Police. By delegating personnel, budget and 
procurement authority to the Chief, the Mayor has enabled the 
Chief to establish the foundation for transforming the 
Department. This role is pivotal if we are going to improve for 
the future. I have to have the ability to make key decisions, 
to deploy resources, to hire, fire, promote personnel based on 
demonstrated competence. Without the necessary authority and 
autonomy, it would be impossible to transform the Department 
and to ensure the citizens are achieving adequate police 
service.
    Second only to the Mayor's empowerment of the Chief is the 
authority to remove the Department's sworn and civilian 
employees who do not meet the high standards of integrity and 
performance that we expect in the new Metropolitan Police 
Department. For the first time, we will now have Department 
employees accountable to the same degree as employees in 
private industry. Employees who cannot or will not meet 
established standards will be fired.
    With my new authority, I have been able to appoint a new 
leadership team which I think has everybody moving in the same 
direction. For the first time, we are focused on crime and 
violence in the city.
    The new team is supported by a cadre of managers dedicated 
to fulfilling the Department's new directive, reducing crime, 
fear and disorder. They are also committed to empowering all 
Department employees, down to the beat level, so that we can 
accomplish things in a timely fashion. We are installing a new 
organizational culture, one of professionalism. We have been 
able to improve our administrative process and to remove old, 
archaic ways of doing things.
    We are asking the citizens to measure our performance. Our 
performance will be based on reduction of crime and reduction 
of fear of crime. We have high expectations of all our 
officers. I have reviewed the Department's conduct and 
disciplinary rules and procedures. We have set up numerous 
committees to look into performance standards, to also set new 
professionalism standards across the board. We will make 
accountability the key word of the day, accountability for 
integrity, performance, control of crime, accountability for 
reducing crime and fear, accountability to citizens on all 
issues.
    As we moved forward in the last month, and I am skipping 
through quickly, we have seen crime, specifically homicide, go 
down 29 percent this year, robberies down 23 percent, 
burglaries down 21 percent. But as we move through the 
empowerment period, over the last 45 days, we have seen crime 
go down 21 percent, homicides down 50 percent. We have seen the 
productivity of the officers go up 100 percent in many areas, 
almost every measurable area.
    At the same time, the one thing that has gone down besides 
crime is citizen complaints.
    I think there is a sense of great hope in this city and a 
great hope in this Department. We have a Department that is 
committed to professionalism, committed to change, working with 
Booz-Allen, working with the MOU partners, we say and have a 
new sense of direction, a new sense of commitment from all of 
the partners in law enforcement in this city and the criminal 
justice system.
    I think with some support from this Subcommittee and the 
Hill, we will have successes in the future.
    Senator Brownback. Good, I am glad to hear that encouraging 
testimony. Next will be Chief Judge of the Superior Court of 
the District of Columbia, the Hon. Eugene N. Hamilton. Judge 
Hamilton, the floor is yours.

   TESTIMONY OF THE HON. EUGENE N. HAMILTON,\1\ CHIEF JUDGE, 
           SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Judge Hamilton. Thank you, Mr. Chairman and Members of the 
Subcommittee, for the opportunity to be present and testify 
this afternoon on fighting crime and violence in the District 
of Columbia.
---------------------------------------------------------------------------
    \1\ The prepared statement of Judge Hamilton with attachments 
appears in the Appendix on page 89.
---------------------------------------------------------------------------
    As we all know, crime and violence and the perception of it 
at this time in the District of Columbia regrettably is at an 
unprecedented high level. At the end of 1995, there were over 
8,000 cases pending in the Superior Court's criminal division, 
and by the end of 1996, there were over 9,000 cases pending in 
the criminal division. This represents a 13 percent increase in 
the Court's end of the year inventory of criminal cases. There 
were 45,000 cases filed in 1995 compared with 47,309 cases 
being filed in 1996.
    Neither the figures for 1995 nor 1996 represent the true 
extent of crime actually in the community, either in 1995 or 
1996, and this is because the figures for criminal case filings 
and criminal case inventories were severely depressed due to 
reduced police action beginning in 1994.
    The last year of non-depressed police activity was 1993 and 
in that year there were over 58,000 criminal cases filed. In 
the years 1994, 1995 and 1996, filings fell to 53,000, 45,000, 
and 47,000 respectively, as shown in my figure 1, which has 
been attached to my statement.
    On March 1 of this year, the Metropolitan Police Department 
commenced its enhanced enforcement activity in the District of 
Columbia. On March 1, 1997 the Court received 118 cases from 
arrests made, for the most part, on February 28, 1997. Then on 
March 3, 1997, the Court received 252 cases from arrests made 
on March 1 and 2, 1997. This trend of greatly increased arrests 
has continued throughout March and April specifically. In March 
and April the average daily arrestees processed in the Court 
were 189 and 180 respectively, as shown in my figures 2 and 3, 
which have also been attached to my statement.
    If the trends of March and April continue, we expect to see 
a total of over 64,000 criminal cases filed in the Superior 
Court by the end of 1997. As I stated previously, the criminal 
case filings hit a low in 1995 of 45,000.
    The entire criminal justice system in the District of 
Columbia is now functioning and the rates of crime are going 
down substantially. The system, however, is very fragile at 
this point. It will require a lot of attention by the criminal 
justice leadership and commitment from the community and 
government support agencies, including the Federal Control 
Board, the Congress, the administration, the Mayor, and the 
Council to sustain this present level of functioning by the 
criminal justice system.
    We must pay close attention to and support to make certain 
that the criminal justice system continues to function in a 
very effective manner, that it presently functions. The systems 
that we must pay attention to, of course, are the courts. The 
judicial and fiscal independence and the well-being of the 
District of Columbia Courts must be provided for and maintained 
because the hub which supports all of the spokes of the 
criminal justice system is a Court system that depends on 
independent, fair, objective, competent, efficient, 
professional and well-trained judges and Court staff.
    The District of Columbia Court system is such a Court 
system for it has earned and enjoys respect not only in the 
District of Columbia but also across the Nation and in many 
foreign countries. Many of the judges are so respected that 
they lecture as instructors in the leading law school programs 
across the country and seminars and training courses that are 
held throughout the country.
    In addition, the Courts of the District of Columbia are 
creators of many innovative judicial programs that seek to 
treat offenders when this can be done efficiently and 
consistently with reasonable safety to the community. The Court 
has a state-of-the-art domestic violence unit which integrates 
all domestic violence cases in the Superior Court except the 
felony cases. The Court has a state-of-the-art urban services 
program, which is a comprehensive rehabilitation program which 
starts with a 30-day boot camp. The Court has a state-of-the-
art family and child services center which has intensive 
services that are provided to children and families.
    In short, the Court system must be supported because, in 
short, it makes no sense for the Metropolitan Police Department 
to make the new arrests, and the U.S. Attorney and the 
Corporation Counsel to file new cases if the District of 
Columbia Courts are not given the judicial independence and 
financial support to efficiently and effectively manage and 
enter dispositions in these cases resulting from those new 
arrests.
    As a MOU partner, I fully support the recommendations of 
the partners, that the officers desperately deserve--an 
immediately 10 percent pay adjustment. I urge that be done 
immediately and, in my judgment, it is crucial to sustaining 
the current law enforcement momentum on the streets. I say this 
because we must all show these officers that when we say: ``We 
appreciate your efforts,'' we really mean it. In other words, 
at this point, these officers have been treated so shabbily we 
need to reinforce and support our words with action.
    As I stated initially, the Metropolitan Police Department, 
as of March 1, 1997, is no longer dysfunctional but became a 
very viable and effective law enforcement agency. This occurred 
because the Chief of Police was empowered to command the 
Department and make budgetary and personnel determinations for 
the Department. This empowerment occurred due to the strong 
recommendation to do so that was made to the Mayor by the MOU 
partners, which was accepted and implemented by the Mayor.
    The consensus to make this change came from the outstanding 
scientific research done by Booz-Allen and Hamilton and the 
leadership of the District of Columbia Financial Responsibility 
and Management Assistance Authority. The results that have been 
obtained teach us that the independence of the Police 
Department and the authority of the Chief to command the 
Department must be assured. The Chief must be assured of the 
authority to make budgetary and personnel determinations, as 
well as direct procurement of the Department.
    In addition, the MOU partnership should be made permanent 
and it should be given the authority to retain a research 
resource such as Booz-Allen and Hamilton.
    Thank you, Mr. Chairman. I would request that my full 
statement be made part of the record.
    Senator Brownback. Without objection, it will be contained 
in the record.
    Thank you all very much for participating in this and I am 
going to put the same 5-minute clock on both Senator Lieberman 
and myself, so you can see how well we do up here.
    I have to back up to how we opened this hearing. It is 
beyond comprehension to me to think that we would have three 
police officers stalked and hunted down in our Nation's capital 
in a period of 4 months. That is just incredible to me. If the 
Iranians had done this, we would be dropping bombs. And yet, 
this has happened in our Nation's capital.
    I hope we--and we have many of the major players involved 
here--take a pledge that we will not tolerate this situation 
continuing. We will tolerate zero assaults towards police 
officers because they are us. They are the representation of 
the people of a civilized nation. They are the representation, 
just as our soldiers are in war. And we will tolerate zero 
assaults towards police officers.
    If a police officer is assaulted, there will be a price 
paid. If one is killed, there will be a penalty extracted, 
period, and it will be equivalent to the crime.
    I hope we can all move forward on that. Mr. Soulsby, I hope 
you can convey that to your police officers who must feel like 
they are in a war zone and being targeted. How are they 
reacting to what is taking place?
    Mr. Soulsby. Well, first of all, I appreciate your comments 
and certainly it causes them great concern. Many of them are 
wondering should they remain in law enforcement. Many of their 
spouses are pressuring them to leave. That is why it is so 
important that we support them.
    But they are professionals and they are going out there 
every day. They are upset about it. And I think it has 
everyone's attention. Any time an officer dies it is very 
tragic for everyone involved. Every single police officer 
hurts, and many members of the community.
    But we have people in society, in this city and others, 
that have no value for life, have no concern about getting 
caught, do not care about going to jail. They do not care 
whether they live or die. They should not be allowed to walk 
the streets of any city.
    Senator Brownback. We will back you up on that. I do not 
know if the police officers have taken a position on the Brian 
Gibson Act, on the death penalty towards killing police 
officers. If you would like to articulate that, if you can?
    Mr. Soulsby. The death penalty is such an individual thing 
for most people, but I am totally in support of the act. I 
think we need a death penalty in Washington, DC.
    Senator Brownback. I think we need to renew our culture, 
too, to think that people would actually do this.
    Towards the Booz-Allen folks, you did a very good study. 
How did we get to a point where, by your numbers, you are 
saying 16 percent of the police officers were involved in the 
beat activity and half of the badged police officers, if I have 
that number correct, made zero arrests last year? How did we 
get to that point and what instructiveness do we have on how do 
we get out of that? Or maybe you feel like we are very much on 
the way of getting out of that type of situation?
    Mr. Mather. I think when you look at the numbers, you start 
off with a fairly high number of people. And then as you go 
attriting down, as they keep getting diverted to administrative 
tasks and other kinds of things, specialty functions and 
whatever, by the time you get down to patrol it is a 16 percent 
number. And so there is--I think the Department, when we 
started, was almost an administrative report-taking kind of 
Department, and the officers were more reacting to crime than 
really trying to prevent it.
    So, I think that the massive shift that you will see is a 
shift in the use of people, what it is that people do at any 
given point in time.
    I think the other thing, on the arrest rate, I do not know, 
I think that there has been a real change of the paradigm under 
the Chief's leadership since this all began. I mean, there is a 
sense of momentum out there and there is a sense of 
accountability and you are going to be held responsible for 
what is happening. And that signal went out loud and strong, 
particularly when the new team was formed and it sprinkled on 
down in the organization.
    I think that signal said, ``Hey, you have a job to do, and 
you are going to do it. And if not, you are going to be done.'' 
I think that signal went out there. And as a consequence, 
people stepped up to the challenge and the arrests started to 
happen.
    With the new paradigm that comes in and this massive shift 
to resources, I think a lot of people will step up to the 
challenge and some will not. But we think that the whole model 
is being tipped on its ear. I mean, it is a whole different 
scheme that is being put in place, and we think the impact on 
crime will be substantial.
    Chips, I do not know if you have any additional comments.
    Mr. Stewart. Very quickly, you had a problem with structure 
and you had a problem with strategy and you had a diffuse, 
fractured mission. You had a bunch of people being hired and 
put in small details to handle specific problems and act like 
Band-aids. It did not take a comprehensive approach and needs 
to be completely restructured. You cannot get there from here 
unless you fundamentally change the vision of the Department, 
the operating model of the Department, and you restructure it 
to put the officers where the crime, the fear, and the disorder 
are. And you have the other part of the system work.
    Senator Brownback. Is that taking place in your estimation? 
That restructuring?
    Mr. Mather. That is where we are headed.
    Senator Brownback. So you are satisfied that we are now 
headed in the right direction, that we are on the right track?
    Mr. Mather. The Chief did the first 400 and the impact of 
that was pretty dramatic, in terms of the impact on the 
numbers. We just spent 2 weeks with 20 officers that were 
picked by the leadership team. They started off in lots of 
different places, but 10 hours a day, 9 days, very intense. By 
the time we were done this whole group, from lots of different 
places in this Department, had coalesced around the idea that 
their job was basically to reduce crime and the way to do that 
was in the street. It was not at headquarters, it was not in 
the District buildings, it was out there on patrol, interacting 
with the community, proactive, crime strategies, executing 
those strategies, figuring out what was going on on the beats, 
and proactively dealing with those kinds of situations.
    So my sense is that there is a real momentum that is 
building here that I did not see when we first showed up. That 
is why I think this raise ends up being so important because 
these officers are looking for symbolic signs that the people 
are behind them, that they are not out there by themselves 
alone, that the Congress is behind them, that the citizens are 
behind them, that they are not just going this alone.
    I think the 10 percent raise would create a real slug of 
not just the financial benefit of it, but just in terms of the 
momentum and the movement and everything. It is just a critical 
thing. We have to do it.
    Senator Brownback. Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Let me just pick up briefly, Mr. Mather, on what you said 
about the response of the officers in the MPD and looking for a 
signal of the public's appreciation for what they are doing. A 
pay raise is obviously part of that.
    From your contact with the police officers, do you have any 
indication about how they feel about the proposal to impose the 
death penalty on those convicted of----
    Mr. Mather. I do not have any data on that, except what I 
have heard anecdotally.
    Senator Lieberman. Mr. Harlan, let me thank you and 
Chairman Brimmer and the Control Board for the leadership that 
you have exercised here. This really was a crisis and you have 
stepped in and brought in Booz-Allen and got great response 
from the other signatories to this Memorandum of Understanding, 
particularly the Chief and the officers, and you can begin to 
see the turnaround. So I do not want to rush forward too soon 
without thanking you for the leadership that you have shown.
    Mr. Harlan. Thank you.
    Senator Lieberman. In a way, my first question has been 
anticipated. I was going to ask you, Chief, and Mr. Harlan--
well, two things. First off, can we draw a line, as far as you 
can determine, between the actions that you have taken, the 
first reform actions if you will, and this remarkable change in 
arrests and statistics and citizen complaints?
    I guess what I am asking is: This is just not accidental, 
is it?
    Mr. Soulsby. No. Actually, you could draw a line in the 
hallways, you can see it on the faces of the officers from day 
1. When this MOU was signed and the discussions in the first 24 
or 48 hours, the whole attitude of officers changed. The judge 
could tell you the attitude, he sees hundreds of officers in 
Court every day and he could see the way they acted around the 
building.
    We had become a Department that was politicized from the 
standpoint of people politicking constantly for promotions, 
externally and internally. We had become a Department that was 
almost, in some senses, like police welfare. Once you got the 
job it was almost impossible to fire you. We had cases where we 
had fired someone four times only to have administrative 
appeals overturn it outside the Department.
    If you have a Department like that, where you cannot fire 
even the worst behavior, I am not talking about criminal 
behavior but just worst behavior, then what happens after a 
period of time is the minor violations are not enforced. There 
is no sense of discipline.
    You had officers that just would not work on the street and 
you would have other officers who would stop working, stop 
looking for things to do, because they would look around and 
say why should I take all the chances? These other officers are 
not doing anything.
    Senator Lieberman. Right, bad morale begets worse morale as 
it goes on.
    Mr. Soulsby. Absolutely.
    Senator Lieberman. Have you taken any action yet? Obviously 
the whole thrust of this hearing is to give every possible 
support we can to the police officers. But as you point out, 
not every police officer is doing his or her job. Have you 
taken action yet against any police officers who you feel are 
not performing up to the standards?
    Mr. Soulsby. So far the action has been taken at the 
highest ranks. There has been five senior people removed. We 
are working with the U.S. Attorneys Office in identifying 
people that they have identified as potential problem people. 
We are looking through it with Internal Affairs pulling every 
case jacket for the last 5 to 7 years, looking at all prior 
actions. We are deciding should this person stay on the 
Department, or should this person.
    So it is an orderly process but we intend to get it done 
this spring.
    Senator Lieberman. We have a lot of hope and a lot of 
confidence in you, and to the extent that you do carry out that 
mission it will make it that much easier--I hate to use that 
word--to get the support for the Department generally from 
Congress and for the individual police officers. I hope this 10 
percent increase is not the last of it.
    If there is a feeling that you are weeding out the people 
who are not doing their jobs, and you have a force out there 
that you are confident in, then I think you are going to find 
Congress willing to continue to reward those people for the job 
they are doing.
    Mr. Soulsby. This Department, the leadership of this 
Department, the entire force has been given an opportunity to 
show its ability. Can it become a professional Department? Can 
it once again be a leader? We are not going to waste this 
chance.
    Senator Lieberman. Good. Judge, you made a very important 
point here, that we ought to all, in the sense of partnership, 
think about how we can respond to which is that if--those 
numbers you gave were dramatic. And if those numbers continue 
there is obviously going to be a different kind of crisis in 
the criminal justice system, both within the Courts and, I 
presume, within the jails.
    In a lot of jurisdictions, including my own in Connecticut, 
we went through this a while back and what ends up happening is 
that you are putting more people in the front door, and yet you 
are letting more people out the back door because you do not 
have room inside the jails. And you have the same kinds of 
problems, if this is not done right.
    I wonder if you could give us some idea of how you see this 
and what, if anything, the District Government is doing or what 
Congress can do to help you with this? Do we need more jails, 
for instance?
    Judge Hamilton. Well, we do need more detention facilities, 
both for arrestees and people who have been committed on 
sentences. I do not think we need as much prison space as one 
would think offhand. I think the challenge now is to weed out 
those people who can be supervised in the community with safety 
to the community in a very cost efficient, effective way, so as 
not to use jail space to house those people. That is what we 
are--we have to focus on that, as well as being certain that 
those people who cannot be supervised in the community are, in 
fact, incarcerated. We have to pay close attention to both.
    Senator Lieberman. Thank you all. Thanks, Mr. Chairman.
    Senator Brownback. Thanks, Senator.
    Mr. Soulsby, have there been other attacks targeting 
District police officers that we have not heard about?
    Mr. Soulsby. Yes, daily. You have a lot of officers that 
are assaulted frequently and at different events. But we have 
had other cases where officers have been assaulted but not 
killed, but if you go back a couple of years, an officer on H 
Street in 1995. The officer and his partner were assisting a 
motorist and the person could not speak. An individual comes up 
behind him and shoots the officer in the back of the head.
    We have had cases where an officer was walking a beat down 
on Martin Luther King Avenue, about 2\1/2\ years ago, and he 
stopped and talked to this young kid. And after the officer 
walked on, the young kid decided he wanted the officer's 
plastic gun. We had Glock guns that are made of space age 
plastic, partially. So after the officer walks on, he shoots 
the officer in the back of the head and the officer survived, 
just to try to get his gun. He just wanted his gun.
    I mean, that is absurd, but again, we have a lot of people 
that commit crimes, commit murder, intimidate witnesses, that 
commit murder in front of 30, 40, or 50 people, and people are 
intimidated to the point that they do not--they have a total 
lack of respect for the entire criminal justice system, I 
think. So witnesses are afraid to come forward. In some cases, 
we have had witnesses killed, and many witnesses who have been 
intimidated.
    There is a culture out there--I do not care whether I get 
caught or not, I do not care whether I go to jail, I do not 
expect to live to be 21 or 25 or 30. They just do what they 
want, when they want. There is just a lack of sense of respect 
for this society as a whole.
    And the officers, being the ones that represent the 
community, are the ones that have to deal with those people on 
a day-to-day basis and it is very difficult.
    Senator Brownback. You are using terminology I use to 
describe a Third World country situation of a judicial system, 
being intimidated in that nature.
    Mr. Soulsby. What you have, and let me make it perfectly 
clear, the vast majority of the citizenry in Washington are 
decent, law-abiding citizens in every community. But there are 
a few in a lot of these community areas, that are just 
terrorizing these communities. And they have no sense of 
society.
    Senator Brownback. You were saying earlier that police 
officers are being assaulted on a daily basis, did I hear that?
    Mr. Soulsby. Yes, we have many assaults on police officers 
cases that go to Court almost on a daily basis.
    Senator Brownback. Maybe we ought to publicize and publish 
that, so people can know just how difficult the duty is of what 
police officers are having to do.
    I understand and I hear you clearly about the need for the 
salary increase, and I appreciate that. Are we providing the 
tools that your officers need for their safety?
    Mr. Soulsby. What we have, and really for the last 15 or 20 
years the Department--as Booz-Allen has indicated--they have 
sent together a package to the White House asking for almost 
$200 million for equipment needs and infrastructure needs. We 
have a lot of needs.
    They have the tools necessary for basic safety, to 
basically do their jobs. But most area Departments have much 
better equipment than we do. They have more modernized 
equipment.
    Senator Brownback. If you could be more specific?
    Mr. Soulsby. It is a combination of--for instance, we have 
an old radio system and we are in the process of trying to get 
a new radio system. We finally have the money, in large part 
thanks to Congress and Senator Hatch, where we can do a lot of 
technology pieces. But we need equipment for our cars.
    For instance, just making sure that we have sufficient 
fingerprint equipment, sufficient equipment to process crime 
scenes across the board. A lot of things that you would have in 
a police car in many other jurisdictions we do not have. We 
have to lend them back and forth.
    So we provide basic equipment, but we have a long way to 
go. And I would certainly be very pleased to submit to you a 
list of our needs.
    Senator Brownback. I would appreciate you doing that, of 
saying if we are going to ask this police force to put their 
neck out on the line every day to defend us, and we are asking 
them to step up the pace because we do not feel safe and we do 
not think you are either, then what equipment do you need to do 
it? So that we can know with clarity that we are not going to 
send our troops into the field without them being sufficiently 
armed.
    Mr. Soulsby. I will submit to you a request or a list of 
those needs this week, sir.
    Senator Brownback. I will look forward to being able to 
have that. Just let me say, as a closing statement for myself, 
I appreciate what all of you are doing and each piece of the 
puzzle that you operate. Particularly, Mr. Soulsby, your 
officers are out there on the front line and I am looking 
forward to the additional ones hitting the streets.
    I am encouraged about the optimism that each of you state 
towards this and about some of the preliminary results. I am 
hopeful that that can continue. We have to do much better for 
your officers. We have to do much better for this community.
    It sounds like to me, from each of you, you are saying we 
can do much better. We clearly can do much better. Other major 
metropolitan areas have done it. You have studied those models 
and you are going along those models and you are moving on that 
path.
    We will look forward to having you back sometime, I would 
hope later this year, to assess progress as we move along this 
issue. And I hope and pray you do not have another headline 
where we have officers killed in the District, hunted down.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman, two quick 
questions. Chief, let me just draw you out for a minute on 
something you said in your opening statement. Obviously what 
you are in the process of now is leading change and it is a 
natural human reaction to resist change. You have been given 
more authority, more independence. Are you getting cooperation 
from the city administration, the Mayor's office, and from the 
police that are serving under you?
    Mr. Soulsby. We are getting basic cooperation from the city 
and many of the MOU partners have been outstanding. But the 
officers, the men and women of the Police Department, for the 
most part are ecstatic about the change. We cannot make it 
happen fast enough. I brought in most of the--certainly, all of 
the senior officials, all of the lieutenants and above in the 
Department, a lot of the sergeants, and talked about--we sent 
video tape statements out to all of the officers. I have sent 
people, senior managers, to every roll call.
    One of the questions we asked all of them, no matter what 
your rank, do you know people of your rank in this room that 
should not be here? And almost every officer would raise their 
hand, or every sergeant or every lieutenant. They are 
frustrated. In large part, they have been stagnant by the fact 
of why should I do anything if these other individuals do not 
and nothing ever happens to them?
    The gloves have come off now, across the board. And that is 
why I told you within 24 or 48 hours, you could see a 
difference. People, instead of frowning walking the hallways, 
were smiling and actually enjoying their jobs.
    When we put this new enforcement effort out in these areas, 
the seven areas of the city, the 400 officers, you had officers 
going in and talking about I have not been out here for 6 or 7 
years doing this. I am absolutely enjoying it. We have had 
officers who have gone to Court and made cases that have not 
been in Court for 10 years.
    The dynamics of this whole Department has changed, is 
changing. We have a long way to go but there is a great sense 
of hope.
    Senator Lieberman. That is great. There is something to be 
said for a culture in an organization, or an attitude in an 
organization, and it sounds to me like you have changed it.
    A final question, Mr. Mather, in response to what you have 
done, obviously, there are some very significant and hopeful 
changes going on. From your perspective, what do we have to do 
to keep this going? What are the key indicators here of 
continued progress in law enforcement in the District?
    Mr. Mather. I think what you said earlier is organizational 
change is a fragile thing and I think momentum is very 
important. I think when we made the recommendation to the 
Control Board on the empowerment of the Chief, it was with some 
trepidation because we did not know how it would turn out.
    Senator Lieberman. Right.
    Mr. Mather. I think we all look back now and think that we 
are very fortunate that the Chief has stepped up to it the way 
he has and has delivered so well. I mean, I think we all felt 
that if that did not happen, it would have set back the whole 
thing a ways. So I think we should all be grateful that we have 
a Chief that is really doing this. I think he has a team behind 
him and his momentum and so on.
    I guess my feeling is that we are on the right course. I 
think the Department is committed to this business of crime 
prevention. I think when we first got started, we said, you 
guys are talking about arrests and 911 response time and the 
rest of the world is talking about body count.
    Senator Lieberman. Right.
    Mr. Mather. People are thinking about the number of crimes 
committed, not what your response is to crimes committed. So 
crime prevention, if you really want to feel safe in this city, 
has got to be the critical thing that is focused on and I think 
it takes time for a Department to come around and embrace that 
idea, and that Department has.
    This group of 20 that has been out there, we have asked 
them to be evangelists, to go out, almost like you drop a stone 
in a pond and it starts to sprinkle out and, slowly but surely, 
this whole thing starts to take.
    So, I think during this transformation process, it has to 
take. It has to have a life of its own and it has to have 
perpetuation at the grassroots level, and as you keep pushing 
this thing to the grassroots level, people are now doing 
things, not because they were told to from on high. They are 
doing it because they have embraced the new idea and they are 
doing what they need to do.
    I have seen a lot of these transformations. I have been 
involved with a lot of them in the corporate world and this one 
has the feel of something that is really going to happen, and I 
think the only thing we have to do to make that the case is to 
stay behind it and keep this momentum going, and I think it is 
going to be--every so often, you get all the things line up. 
Part of it is just luck and part of it is hard work and part of 
it is just the way it turned out.
    But some very good things are happening and I think it is 
fundamental and I think it is structural and all we need to do 
is keep this momentum going and I think we will have a 
different Department and a different city.
    Senator Lieberman. Great. I hope we in the Senate and 
Congress generally can do our part to support that change. 
Thank you all very much.
    Senator Brownback. Thank you all very much. We appreciate 
it.
    Our next panel will be Dr. Robert Moffit, the Deputy 
Director for Domestic Policy Studies, the Heritage Foundation, 
and C. Stephen Wallis, Washington, D.C. Area School 
Administrator.
    We are going to do with this next panel just like we did 
the last one. It will be a 5-minute presentation, gentlemen, if 
you can. Sorry to keep you limited so tight, but we have a lot 
of people that want to help us out with a tough problem here, 
so we will try to keep it to 5 minutes, as well, if you can.
    We will take the full statement in the record, so if you 
can summarize that, that would be appreciated.

  TESTIMONY OF ROBERT MOFFIT,\1\ DEPUTY DIRECTOR FOR DOMESTIC 
            POLICY STUDIES, THE HERITAGE FOUNDATION

    Mr. Moffit. Thank you very much, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Moffit appears in the Appendix on 
page 125.
---------------------------------------------------------------------------
    My name is Robert Moffit and I am the Deputy Director of 
Domestic Policy Studies at The Heritage Foundation. I supervise 
a staff of analysts in the areas of health, education, welfare, 
and urban policy, including urban crime.
    Mr. Chairman, at the outset, words cannot express the honor 
that I feel at having the opportunity to testify before this 
Subcommittee of the Senate on this issue. The reason is that 
for me, personally, the problem of the police and the problem 
of crime is not at all abstract. I come from a family of 
Philadelphia police officers. My father was a detective in the 
Philadelphia Police Department, with 25 years of service. I 
feel deeply about the welfare of the police and their struggle 
with the problem of crime.
    I should also point out, before I get into the depth of my 
testimony here, that for my colleagues at The Heritage 
Foundation, crime is not an abstract policy question. Over the 
past 36 months, Heritage staff have been victimized by violent 
crime on more occasions than we care to count. So our interest 
in the success of the Police Department is not an object of 
metaphysical interest.
    In our own way, my colleagues at the Foundation have 
encouraged the serious discussion of the future of the 
Metropolitan Police Department. Back in October of 1996, The 
Heritage Foundation sponsored a public policy lecture by 
William J. Bratton, who was the former Police Commissioner of 
the City of New York on the topic, ``If New York City can 
reduce violent crime, why can't D.C.?''
    You all know the reason. Over the past 4 years, New York 
City has witnessed an overall reduction in crime by 50 percent. 
During Bratton's 27-month tenure alone, New York City saw a 36 
percent reduction in serious crime, including a 44 percent drop 
in auto theft and a 45 percent drop in murder.
    The purpose of the Heritage initiative was to determine 
how, precisely, this was accomplished and what policy makers 
here in Washington, locally and nationally, could learn from 
the New York City's stunning success.
    Larry Soulsby, the Chief, was a panelist. He was invited to 
discuss ways that he could improve the Department at the time. 
Eric Holder was also invited, as were representatives of the 
local neighborhood associations. I am proud to report it was a 
positive, encouraging, and very productive meeting.
    I am going to confine my remarks this afternoon to the 
question of the police and how public officials can help the 
police. I noticed at the top of this conversation, we were 
talking about the tough job facing the police. It seems to me 
and my colleagues at The Heritage Foundation that perhaps the 
basic problem is that most of us simply do not think about the 
police enough. More precisely, we do not give the police enough 
thought about what kind of job they do.
    That has certainly been true in the District of Columbia. 
The Memorandum of Understanding describes a Metropolitan Police 
Department plagued by deep cynicism, ``low morale for 
management, a lack of clear vision and common purpose,'' but it 
then further notes, ``that many of these conditions existed for 
the last 10 years.'' From the standpoint of public policy, 
ignoring the police can be catastrophic.
    The job that Congress and local officials have to undertake 
first is to rethink the job of the police officer. It is our 
first task. We have to ask ourselves a fundamental question: 
What public official exercises more direct, concrete, and 
immediate authority over every citizen of the United States, 
regardless of their class or condition, than a police officer?
    If you think about it, the authority of the police officer 
is awesome. There is nothing else like it. He can stop you and 
he can question you under a given set of circumstances. He can 
arrest you and take away your personal liberty. And, indeed, 
under another set of circumstances, he can even deprive you of 
your life.
    He is bound by rules and regulations, as is every other 
public official, but as James Q. Wilson and others observed, 
these rules tell him what he cannot do. They tell him nothing 
about what he can or should do. There is a reason for this, and 
it is inherent in the job of the police officer as a 
profession.
    The police are, as Wilson and others have noted, the 
supreme paradox of personnel management. In virtually every 
other public or private institution you can imagine, the 
discretion of an official, what he can do under a broad charter 
of responsibility increases as one goes up the hierarchy. At 
the very top of the pyramid, whether it is running Microsoft 
Corporation or the Department of Health and Human Services, the 
discretion of your top officer is enormous.
    The police are the exception to this otherwise iron rule of 
management. Indeed, in the case of the police, the discretion 
in the exercise of authority increases as one goes down the 
hierarchy. So in the case of the police, you have a unique role 
reversal that exists nowhere else in either public or private 
management. The police are operationally independent, they 
operate alone, they have to depend primarily on their own 
judgment, weighing the circumstances in every case, and they 
operate without direct supervision.
    In effect, they are authorized to make split-second 
decisions in matters of life and death within the confines of 
the law and the Constitution. This is something that is beyond 
the experience of most Members of the Senate or the House or 
even the Supreme Court. This kind of discretionary authority is 
for most of us, simply beyond imagination. Public officials 
should think about that. They should think about it a lot. They 
should think about what kind of person they want in that kind 
of a job.
    We have to also rethink the standards for police personnel. 
The problem of the police is ultimately a problem of personnel 
management. Specifically, it is a matter of adopting 
appropriate standards in recruiting and hiring and firing and 
promoting and deploying police officers. As my colleague at The 
Heritage Foundation, Bill Bennett, once remarked, no personnel 
decision in government is more important than the hiring of a 
police officer. If you make a mistake in hiring a police 
officer, the consequences can be catastrophic.
    We also have to rethink the role of the police in 
combatting and preventing crime. It looks like we are on the 
way to doing that. I am very grateful to see that the D.C. 
Police Department and the Booz-Allen team and the signatories 
to the Memorandum of Understanding are doing precisely that.
    We can do a lot of other things. I have specified in my 
testimony 10 different items. It has a central theme: Getting 
serious about personnel investigations, serious about 
recruiting standards, and at the same time, giving the police 
the recognition they deserve.
    One thing I want to close with, Mr. Chairman. Beyond the 
pay raises, one thing that we may want to think about is to 
have the President, the leaders of Congress, the 
representatives of the business community and the labor 
community, the press corps, once a year in this city honor 
outstanding police officers. It would go a long way to boosting 
the morale of the police, to let them know that the highest 
officials of this country are behind them 100 percent.
    Thank you. That ends my initial statement.
    Senator Brownback. Thank you very much, Dr. Moffit. I 
appreciate that.
    Mr. C. Stephen Wallis, Washington, D.C. Area School 
Administrator, thank you for joining us.

TESTIMONY OF C. STEPHEN WALLIS,\1\ WASHINGTON, D.C. AREA SCHOOL 
                         ADMINISTRATOR

    Mr. Wallis. Thank you, Chairman. I appreciate the 
opportunity to be here today, Senator Lieberman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Wallis appears in the Appendix on 
page 149.
---------------------------------------------------------------------------
    My focus over the last several years has been on the 
pivotal role that school environments play when we examine 
American public schools, and it seems to me that a discussion 
of crime, adult and juvenile, in any of America's communities 
would be rather incomplete without an equal examination of the 
community's schools.
    Frankly, too many of America's public school teachers 
perform under combat conditions, Senators. Worse, teachers too 
often have little support from local boards of education or 
school administrators, and yet despite the barrage of 
disrespectful behavior on the part of unruly students and the 
lack of action from school authorities, these teachers daily 
make heroic efforts to educate this country's youth.
    State and local legislators can take a strong hand in 
reforming public education through school choice, charter 
schools, and other measures designed to increase 
accountability. Today, I want to lay out before you how it is 
that legislators can also play a vital role by restoring 
discipline and, frankly, civility and a traditional level of 
popular literacy.
    The District of Columbia is no exception in this regard, 
sadly played out with frightening regularity in too many of its 
schools, most recently at Ballou regarding the stabbings just 
within the last day or two and with the Winston Elementary sex 
incidents within the last 2 weeks.
    And while urban, suburban, and rural school administrators 
continue to fret for more funds, and money is awfully 
important, I humbly contend that money is the wrong focus. The 
most pivotal reason for this country's lackluster educational 
performance continues to revolve around the utter lack of 
civility in our schools, and, worse, it is tolerated on a daily 
basis.
    We can no longer assert the need to set rigorous standards 
and then ignore the very reason why this is unachievable. The 
number of classroom disruptions interfering with teaching and 
the number of threats and injuries to teachers and students 
grow exponentially, and it appears to me that many of the 
schools have lost their sense of culture, of just what is 
important for students completing their K-12 public school 
education.
    A school's success is due, in major part, to its 
philosophical foundation, its norms and its beliefs, academic 
and social. So if the climate exudes achievement for everyone 
and if the school emphasizes educational goals and what I call 
the 4 Rs, including respect, then the grounds themselves, the 
building itself is thought of as a place for learning. It is of 
paramount importance, and then this becomes infectious. 
Teachers will also project to all students that they can and 
are expected to achieve.
    But that is not the case that we have in most of our 
schools, gentlemen. When a school system is fraught with 
disruption and rampant disrespectful behavior and where 
policies governing behavior are weak or poorly written, then 
the mission is at best amorphous and allows for an erosion of 
sensible expectations. In effect, the school's culture is 
subverted by a kind of silent chaos.
    You have to be in a public school, in many of them, to see 
the repeated sundry of ill behaviors, from disrespectful 
comments to peers and adults, the pushing, the fighting, the 
rudeness, the open alcohol and drug activity in school 
corridors, lateness to class, the truancy, being unprepared, 
foolish disregard for policies, sleeping in class, fondling one 
another, wearing clothes emblazoned with drug, gang, and often 
demeaning expressions to one or another's gender, ad nauseam, 
often with no correction and no consequences.
    I have stated repeatedly that this has a negative 
cumulative effect. It is as though we are waiting for 
youngsters to run to the edge of the cliff before they decide 
that leaping off the edge, in this case, a knife cutting in a 
cafeteria or a violent assault or a gun incident, is really 
inappropriate. It is very similar to the broken window 
syndrome.
    As a Nation, we can be appalled, but we ought not be 
surprised at the level of violence being played out in our 
streets. It is being played out in our schools, elementary, 
middle, and high. Youngsters continue to graduate from the 
schools with barely a tenuous grasp of right and wrong. They 
will continue to play the system, and sadly, too frequently, be 
in and out of the justice system and still many what I call 
educrats and others still do not get it.
    An effective school system, one that focuses on stressing 
achievement, wholesome involvement in the total school program, 
emphasizing respect and integrity, emphasizing also a shared 
parent partnership, cannot be sustained under conditions where 
there are endless excuses for intractable defiant behavior and 
no moral or ethical consequences.
    There are some things I think legislators can help us do. 
First of all, there are four principles that must characterize 
certain actions. Disruptive and violent behavior receives zero 
tolerance. Discipline be even-handed with due process, 
regardless of ethnicity, gender, or socio-economic background. 
An acknowledgement that substantive discipline is a kindness 
that contributes to personal growth and freedom. And last, 
there must be a return to the appropriate mission of schools, 
refocusing efforts on teaching youngsters to read, for God's 
sakes, to compute, to write, to speak, and to think critically.
    We can encourage involvement by use of parent contracts. I 
would ask legislators to encourage the Washington, D.C. school 
system to establish community service for those students on 
suspension, gaining an understanding of compassion, respect, 
and humility and responsibility that might be learned and might 
be gained by helping someone in a nursing home, tutoring 
another youngster, cleaning up a park; establishing school 
time-out rooms with a para-professional and community agency 
staff to work with disruptors, if only temporarily, 
establishing transitional schools for the habitually disruptive 
student; establishing afternoon auxiliary centers with 
supervised open classrooms and gymnasiums after the regular 
school day for those students wishing to take in academic 
assistance or participation in cultural activities; insisting 
that school officials review and rewrite, if necessary, student 
discipline codes; making character education a part of the 
curriculum; hiring retired military staff as a resource of 
talent and training; ensuring that adequate security personnel 
are in the schools and on school grounds; ensuring that high 
schools employ reading specialists; and the last two, cutting 
off funds, if you will, to those districts or those schools 
tolerating disruption; and examining school staffing and 
assigning staff to our schools with community-specific at-risk 
needs and really departing from the rigid formula that assigns 
staff on the basis of student numbers.
    I would add that I think the more students think and learn, 
the more active they will become in the instruction. And when 
respect, self-discipline, and character are rewarded, student 
motivation to learn will increase, Senators.
    I will tell you that I think there is a continuing active 
role for legislators, for employers and communities, for that 
matter, in the effort to move our children to world class 
standards, but it has to be recognized first and foremost that 
disrespectful behavior and disruption steals learning and 
smothers instruction, and in the process, steals the future 
from far too many students.
    Last, I would like to say that we might begin improving the 
conditions under which too many American public school teachers 
work and teach if the end result is improving the education of 
our country's children. I would thank you all very much for the 
time and effort that you give to the District's children and 
their parents and their teachers.
    Senator Brownback. Thank you, and thank you for your work 
on the front lines in the schools and with the children.
    With three police officers being, we have even heard the 
term here today, assassinated in the District in the first 4 
months, does any of that surprise you, being a school 
administrator and some of the comments that you've made about 
lack of respect in the school system, of kids growing up and 
being willing to engage even in the mental processes of 
thinking about actually going out and killing a police officer? 
Does any of that surprise you?
    Mr. Wallis. It does not, Chairman Brownback. Recently, 
talking in San Antonio and Detroit, Michigan, I have said 
nationally that far too many of the criminal element, frankly, 
have been cultivated in our public schools. They at one time 
were in our public schools.
    And the fact of the matter is that an atmosphere that is 
rife with disruption simply cannot produce kids who know 
something about self-respect and integrity and regard for the 
sanctity of life. I am not surprised at all. I think we are 
reaping 25 to 30 years of what we have sown.
    Senator Brownback. And you have stated in your testimony, 
and I appreciate that, some of the things you think that we can 
do here to try to turn that tide. I know it is both Senator 
Lieberman's and my hope that we have reached the bottom of the 
barrel and we are going to start turning this around, but we 
have a lot of years to go.
    Mr. Wallis. I am sure we do, Chairman, but I would humbly 
insist that before legislative bodies appropriate a single 
dime, that those vested with the responsibility to educate our 
youngsters ensure that these schools are safe, that they have, 
in each one, an atmosphere that is conducive and contributive 
to academic study consistently and extracurricular involvement.
    Senator Brownback. Is that happening now in the District of 
Columbia schools? We now have the Control Board involved. There 
has been a lot of hope and promise being put forward there. Is 
it happening now in the District of Columbia?
    Mr. Wallis. Generally speaking, it is not, Senator, which 
is why you have had occur just within the last couple weeks 
some of the problems that we have had in the schools. It 
certainly is nothing indigenous to Washington, D.C. This is 
pervasive and we all know the violence statistics. But I would 
contend that the disruptive and disrespectful behavior that we 
see is far more pervasive than the violence.
    Senator Brownback. You cite charter schools, and choice. 
What else can be done within the school system today to try to 
reinstill some of that respect and reduce the disrespectful 
activity?
    Mr. Wallis. I think it is going to take a legislative body, 
such as this, and the community working towards the effort of 
really renewing schools and doing it in a substantive fashion, 
because we can talk about increasing test scores, we can talk 
about incorporating technology in different schools, but the 
fact is that we need to emphasize very, very substantively the 
importance of a shared partnership with the community, and 
frankly, as I mentioned earlier, the complete sanctity of the 
schools, where schools are places where the parameters are such 
where kids must achieve.
    It takes dynamic leadership. The faculty have to know how 
much they are appreciated and kids have to know that each and 
every one of them can succeed, and it is true, but it is 
utterly impossible when schools are run as they are today. It 
is fundamentally flawed to think that we can talk about these 
kinds of things regarding achievement and then stand by and 
allow the kind of behavior that steals dignity and smothers 
instruction every day.
    Senator Brownback. So set standards and absolutely adhere 
to those?
    Mr. Wallis. I think so. I believe in my heart, Senator 
Brownback, I think we need to declare a war on incivility and 
it takes setting standards. There are too many constituencies 
who have supported me on that. I have talked to minority youth. 
I have talked to various schools, their faculties, and I am 
telling you, across the Nation, kids are hungering for this. 
They have indicated in recent surveys that they would feel a 
lot better about themselves, they would learn a great deal more 
if they just felt safer.
    So, if you are talking about crime in any one community, 
you have got to discuss the schools and they have to be 
examined and they have to be run, I would humbly suggest, as I 
am outlining today.
    Senator Brownback. Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    You both gave excellent testimony, both in terms of the 
attitude, the values that you bring to it, which I appreciate a 
lot, and the specific recommendations that you have made.
    If I may, not to take too much time, but this whole notion 
of incivility is so critical, and it has been an interest that 
I have shared with the Chairman, to examine or to do something 
about the effect that the entertainment culture--television, 
music, movies--have on kids with the decline of some of the 
other sources of authority, traditional civility.
    Take a look at television. Part of what is wrong with the 
trash talk TV shows is not just the dominance of the sexually 
perverse behavior that is described, but it is the way the 
discussion goes on. It is yelling at each other, it is pushing 
each other around.
    Take a look at some of the TV shows, some of them that seem 
pretty funny. You could take a look at ``The Simpsons'' and, in 
one light, it is sort of funny, or ``Married With Children,'' 
which is now going off the air. But what is involved in both of 
those shows is a profound lack of civility and respect for 
authority, parents, for instance. So we all pay the price for 
this. I apologize for the sermon on your time, but----
    Mr. Wallis. You are preaching to the choir.
    Senator Lieberman. Thank you.
    One of the other things you have said, just in response to 
the Chairman and just to punctuate it, we are accustomed to 
having people say that prisons are schools of crime, that often 
people go in a prison, come out more schooled in crime. It is 
an awful thought, but it is true in too many schools in our 
country today, that schools can also be breeding grounds for 
criminal behavior and we have to stop that.
    Let me ask a specific question. I missed asking this both 
last week or 2 weeks ago when the school folks were in and 
today. Are the D.C. police responsible for security in the 
public schools or is there a separate school security force?
    Mr. Wallis. I am not absolutely sure of that, Senator. I 
know some schools have hired separate security, private 
security, and I know some Washington, D.C. officers have 
patrolled some of the schools. I am not sure if there is an 
actual formal contract for that.
    Senator Lieberman. OK. We can pursue that. I just am 
curious as to whether you have seen a reduction in crime within 
the schools in the period of time that we have heard described 
in the previous panel, by the Chief and others in which this 
new approach is going into effect. We are seeing more arrests, 
a drop in serious crimes. Have you seen any change within the 
schools that you are involved in?
    Mr. Wallis. I am sorry to say I have not. No, sir.
    Senator Lieberman. Dr. Moffit, thanks for your testimony 
and the specificity of your suggestions. I am very interested 
to just ask you to talk a little bit about No. 4 of your 10 
items, which is to anchor the police in the community.
    Mr. Moffit. Right.
    Senator Lieberman. I am real interested in what you said 
about going beyond putting the cop on the beat, community 
policing, but have some other ideas, and this really goes to 
the heart of what I was saying at the outset, which is when I 
grew up, not only did we have respect for the cop, but he was 
our friend, if you will.
    Mr. Moffit. Right.
    Senator Lieberman. I am afraid there was a whole generation 
or maybe more than one that came along where the cop was almost 
like the invading army and an outsider in a car, almost like a 
tank. You never saw him, but whatever he was, he was not on our 
side. Talk a little bit about that.
    Mr. Moffit. I would like to talk a little bit about that. I 
mean, there are a lot of reasons why. Some of them are 
technical. Some of them are social.
    But when you were growing up, and, frankly, when I was 
growing up, in my young life, I spent a fair amount of time in 
Center City, Philadelphia. The neighborhood policeman was an 
institution. The key thing was that the neighborhood policeman, 
the neighborhood cop, knew the people in the neighborhood, and 
even better, all the people in the neighborhood knew the 
neighborhood cop.
    This had a profound effect on law enforcement. Because what 
it meant was that any time a crime was committed, the 
neighborhood policeman had an immediate access, in effect, to 
an informal intelligence service.
    Senator Lieberman. Right.
    Mr. Moffit. We lost that. My view is that we have got to 
get back to that and there are a number of ways of doing it. I 
mentioned Charleston, South Carolina, in my testimony, and 
Portland, Oregon, where the local officials are trying to get 
the policemen to become members of the community that they 
serve. One way to do that is housing vouchers or low-interest 
loans, literally giving the police the opportunity--it is a 
voluntary program--to go back into the communities they patrol 
and become part of the community.
    The key value of that, once again, is that the people in 
the community then have a stake in that policeman and that 
policeman has a stake in the community. It is an excellent 
idea. I do not think we ought to order the police to do this, 
but I think we ought to make it an option, and in Washington, 
D.C., this is something we may want to consider or pursue.
    Senator Lieberman. And this is being used in some 
communities, like Charleston, with some positive effect?
    Mr. Moffit. Yes. That is right.
    Senator Lieberman. I appreciate that. You make an 
interesting point, actually, about the way in which the old cop 
on the beat had his built-in intelligence network.
    Mr. Moffit. Immediately.
    Senator Lieberman [presiding]. Most police I talk to will 
tell me, at home, certainly, in Connecticut, that the way that 
most crimes are solved is by getting cooperation, today, often 
paid for with cash, which is an acceptable form of law 
enforcement, but it is a cost that law enforcement did not have 
in the old days because the cop knew everybody in the 
neighborhood and was already able to break through and get 
information.
    I thank you both very much. The Chairman has had to step 
out, but he has asked me to move on and call the next panel. We 
appreciate very much your testimony and your written testimony, 
and it will be helpful to the Subcommittee as we go forward. 
Thanks very much.
    Mr. Moffit. Thank you, Senator.
    Mr. Wallis. Thank you, Senator.
    Senator Lieberman. Stay strong.
    The final panel is the Hon. Carol Schwartz, District of 
Columbia City Council, and Dr. H. Beecher Hicks, Jr., Senior 
Minister of the Metropolitan Baptist Church. Thanks to both of 
you for your patience and for your willingness to be here. We 
are going to run the clock again at the 5 minutes, I guess.
    Councilwoman Schwartz, you are first. It is good to see you 
again.

   TESTIMONY OF CAROL SCHWARTZ,\1\ DISTRICT OF COLUMBIA CITY 
                         COUNCIL MEMBER

    Ms. Schwartz. Thank you, Senator. It is nice to see you, as 
well.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Schwartz appears in the Appendix 
on page 153.
---------------------------------------------------------------------------
    I would like to thank the Senate Subcommittee on Oversight 
of Government Management, Restructuring, and the District of 
Columbia for the opportunity to testify today concerning 
strategies for fighting crime and violence in the District of 
Columbia. I speak to you today as an elected at-large member of 
the Council of the District of Columbia. Although the Council 
is doing much in the area of fighting crime and violence, and I 
hope you will ask me some questions about that at the end of my 
testimony so I can talk about it, I am going to concentrate my 
remarks on the death penalty as it relates to the killing of 
law enforcement officers.
    First, let me begin by stating that I believe that local 
criminal law should be an area in which local communities ought 
to have the right to make their own decisions. My colleagues on 
the Council and I wholeheartedly agree on this issue and have 
not yet signed onto the President's plan for the District 
because of our concerns in this area.
    The 38 States that have enacted death penalties into the 
criminal law have done so based upon local considerations and 
circumstances. There are 12 States, like the District of 
Columbia, who have not enacted a death penalty statute. Yet the 
U.S. Congress has not intervened to impose death penalty 
legislation in any of those States.
    I think it is safe to say that such an intrusion into the 
local affairs of those 12 States would be unthinkable to the 
citizens of those States and to the Members of Congress who 
represent them. Should we not all believe, as President Abraham 
Lincoln did, that ``those who deny freedom to others deserve it 
not for themselves.''
    Members of the Subcommittee, I respectfully ask you to 
consider that the American citizens who are my constituents in 
the District of Columbia are like your constituents. All of our 
constituents possess the rights as citizens of a democratic 
society to determine their own local government affairs 
locally. Just because the Congress has the constitutional 
authority to enact legislation for the District does not mean 
they must exercise it.
    While I personally support the death penalty, I believe 
that the District of Columbia should be free not to enact such 
a law if that is the will of the people. That is the essence of 
a democracy. The author, Eric Hoffer, once said that ``the 
basic test of freedom is perhaps less in what we are free to do 
than in what we are free not to do.'' I agree with this 
statement.
    I recently returned from Croatia, where I was privileged to 
be a member of the United States delegation that observed the 
elections there. It is a powerful experience to witness a 
people determining their destiny through the vote. The U.S. 
Government supports democracy in Croatia and throughout the 
world. The U.S. support for democracy worldwide contrasts 
sharply with how the District of Columbia is routinely treated 
by its own Federal Government.
    This discussion also reminds me of news commentator Edward 
R. Murrow's observation that ``we cannot defend freedom abroad 
by deserting it at home.''
    I support the death penalty for those who are convicted of 
murdering law enforcement officers. I firmly believe that our 
local law enforcement officers in the District of Columbia 
should have the same protections as other law enforcement 
officers who operate in the District, such as the Capitol 
Police, Park Police, Uniformed Senate Service, the Secret 
Service, and others.
    The death penalty bill that the Mayor and I announced on 
April 21, 1997, is D.C. Bill 12-204, the Law Enforcement 
Officer Protection Amendment Act of 1997. That bill would 
provide for the death penalty in cases of murder of D.C. law 
enforcement officers. I support D.C. Bill 12-204 because I 
believe that it is critically important for the people of the 
District of Columbia to have an opportunity that is locally 
initiated to weigh in through the legislative process on this 
serious and highly complex criminal penalty.
    As you may recall, District voters soundly rejected a 1992 
Congressionally mandated initiative on the death penalty by a 
margin of 2 to 1. I know for a fact that many of the no votes 
were to Congressional interference rather than to the death 
penalty.
    The bill recently proposed by the Mayor and myself will 
permit District of Columbia citizens to express their views on 
the death penalty for the murder of law enforcement officers 
without being required this time to simultaneously register 
their views on the issue of Congressional interference in 
District affairs, but only if Senator Hutchison withdraws her 
bill, you deep-six it, or you vote it down.
    I believe that the will of the people of the District of 
Columbia should prevail on this issue, whatever that may mean 
for the Mayor's and my bill. I am confident that the Congress 
of these democratic United States will respect the democratic 
rights of the over half a million American citizens who make 
their homes and dutifully pay their Federal income taxes here 
in the District of Columbia. Thank you.
    Senator Lieberman. Thank you, Ms. Schwartz. We will have 
some questions afterward.
    Dr. Hicks, we are honored to have you here and look forward 
to your testimony now.

    TESTIMONY OF REVEREND H. BEECHER HICKS, JR.,\1\ SENIOR 
             MINISTER, METROPOLITAN BAPTIST CHURCH

    Rev. Hicks. Thank you, Senator Lieberman. I am H. Beecher 
Hicks, Jr., Senior Minister of Metropolitan Baptist Church in 
the District.
---------------------------------------------------------------------------
    \1\ The prepared statement of Rev. Hicks, Jr. appears in the 
Appendix on page 156.
---------------------------------------------------------------------------
    Ordinarily, I would say that I am happy to testify before 
the Senate Oversight of Government Management, Restructuring, 
and the District of Columbia Subcommittee, but I am not. I am 
truly saddened by the events which make this testimony 
necessary, and at the same time, I am unalterably opposed to S. 
294 for a number of reasons which will shortly be apparent.
    Let it be clear that I share the broken heart of the entire 
community because of the recent death of three District of 
Columbia police officers and the suffering and pain it has 
caused to their families. More to the point, I am extremely 
sympathetic to the family and friends of anyone who is slain. 
The nature of my ministry causes me to be in a caring 
relationship with all who know the anguish of unredemptive 
grief. My job is to walk weekly to the cemetery, there to bury 
the sad remains of this social insanity.
    Even within that context, however, my position against the 
death penalty is a longstanding one, a position which I trust 
will be taken seriously in this significant body.
    In 1992, Congress tried to impose the death penalty on the 
District of Columbia, but the late D.C. City Council Chairman 
David Clarke, the Rev. Al Galbin, and I organized area 
ministers against the manufacturers of semi-automatic weapons. 
Our group was responsible for the ``Thou shalt not kill'' 
posters that were visible throughout the District. Five years 
ago, we mounted this campaign with the help of other groups, 
and by an overwhelming majority imposed economic consequences 
upon the manufacturers of the weapons of death that caused 
blood to run in the streets of our city.
    It is a strange and curious circumstance which leads to a 
discussion of the death penalty before this Subcommittee of the 
U.S. Senate. It is also a strange and curious philosophy which 
posits that by killing killers, we shall stop killing, that one 
act of savagery justifies the next.
    The reasons for my opposition to the death penalty are as 
old as the Mosaic Torah and are the same in the instance of the 
death of a police officer or of a private citizen. The same 
injunction which was placed throughout this community in 1992 
is the same injunction which must be given today, thou shalt 
not kill.
    This entire discussion fails to take into account the 
culture of violence which has given rise to a segment of our 
population which has no value for life. While three police 
officers have regrettably lost their lives and while it is at 
least politically expedient for some to suggest that police are 
being deliberately targeted for death, it is also true that 
similarly innocent persons in the larger populous have lost 
their lives through drive-by shootings, gangland style murders, 
and acts of domestic violence which have literally caused blood 
to run in the sewers of this city. Is one death more important 
than the next? I think not.
    We must respond most forcefully to those conditions which 
occasion irrational thought and unthinkable behavior--
joblessness, homelessness, drugs, hopelessness, and a whole 
myriad of social diseases which affect this community and so 
many others throughout this land.
    I am opposed to the death penalty because of the frailty of 
our humanity. All of us are fallible, none of us more perfect 
than the other. We do not have a perfect criminal justice 
system. We have only to remember cases of prisoners being 
released after years of incarceration because of DNA tests that 
proved them innocent. The recent allegations of tampering with 
evidence by criminal justice authorities makes it difficult, if 
not impossible, to place total faith in a system operated by 
mere mortals and, therefore, subject to critical flaw. Capital 
punishment leaves no margin for error. Its consequences are 
mortally severe.
    You are aware of the typical arguments against capital 
punishment. There is no credible evidence that the death 
penalty deters crime. States that have death penalty laws do 
not have lower crime rates or murder rates than States without 
such laws. States that have abolished capital punishment or 
instituted it show no significant changes in either crime or 
murder rates. Like it or not, in reality, such laws will do 
nothing to protect the citizens or communities from the acts of 
dangerous criminals.
    The issue at hand, however, is far more compelling and 
enticing. All reasonable persons would argue for the most 
elaborate protection of those who protect us. Nevertheless, for 
death penalty laws specifically imposed for the murder of a 
police officer, there is no evidence that police officers are 
murdered at any lesser rate in States that do not have that 
law.
    In fact, according to the National Law Enforcement Officers 
Memorial Fund, Texas ranked fourth in the Nation in 1996 in the 
number of police officers killed, second in 1995, third in 
1994. According to Law Enforcement News, prior to the 
statistics above, from 1988 through 1993, Texas ranked No. 1 in 
police killings. Therefore, if the death penalty for police 
officers did deter these murders, the statistics for Texas, the 
great State of Senator Hutchison, would be a less striking 
phenomenon.
    The unvarnished truth of the criminal justice system in 
America reveals that the death penalty has a disparate impact 
on African-Americans. Since the revival of the death penalty in 
the mid-1970's, about half of those on death row at any given 
time are of African-American descent. During 1996, of the 3,200 
prisoners on death row, 40 percent were black. These statistics 
are compiled nationwide, where African-Americans are 
approximately 12 percent of the population. It is not that 
people of color commit more murders. It is that they are more 
often sentenced to death when they do.
    Poor people are also far more likely to be death sentenced 
than those who can afford the higher cost of private 
investigators, psychiatrists, and expert criminal lawyers to be 
used in their defense. Some observers have pointed out that the 
term capital punishment is ironic because only those without 
capital get the punishment.
    I personally oppose the death penalty. I am here today 
because I believe the residents of the District of Columbia 
have an inalienable right to make that decision for themselves. 
Only those who are elected and accountable to the citizens of 
the District of Columbia have the moral imperative to make the 
decisions which are so important and so dire.
    That we face a crisis, there is no doubt. This is not a 
foreign enemy invasion. It is an internal pathology, which, 
though unacceptable, is no justification for an exacerbation of 
amoral punishment, the ultimate act of incivility.
    In this time of crisis, we must seize the opportunity to be 
firm and resolute as we deal with crime but sane and civil with 
the treatment of those who are the perpetrators of crime. The 
quality of mercy must not be strained. Let there be no 
equivocation in my position. Thou shalt not kill.
    Senator Lieberman. Thank you, Dr. Hicks, and Councilwoman 
Schwartz. Obviously, you have both spoken against the grain, if 
you will, of previous testimony, but this does not come as a 
total surprise to the Subcommittee. We appreciate that you are 
here. This process works best when we, if you will allow me to 
say this, Dr. Hicks, when we do not only hear a chorus of 
``amens,'' but when we are challenged to hear all sides, and I 
appreciate the eloquence with which you both spoke.
    Senator Brownback [presiding]. Thank you, Senator 
Lieberman. I apologize. We just had a major issue that I had to 
take care of.
    If I could ask quickly and directly, Councilwoman Schwartz, 
you heard Senator Hutchison testify, saying, ``Look, I am 
willing to allow the city to go forward.'' You are a supporter 
of capital punishment for protection of police officers. You 
heard her say something about somewhere around a July 1 time 
frame. Is that a reasonable time frame to give the city the 
time to act on this issue?
    Ms. Schwartz. Well, it really is not a reasonable time 
frame, and what concerns me about this--if you do not mind, let 
me tell you a true story.
    Senator Lieberman. In your absence, Mr. Chairman, 
Councilwoman Schwartz advised us to deep-six Senator 
Hutchison's proposal.
    Ms. Schwartz. That was a choice. Either vote it down, deep-
six it, or have her withdraw her bill, which unfortunately, she 
does not seem amenable to doing.
    But let me tell you a true story. In 1992, I mentioned to 
you what happened with the Senate initiative on the death 
penalty, and unfortunately, Senator Brownback, you did not hear 
my testimony, but in my testimony, I stated that defeat of the 
death penalty, which was by a 2-to-1 margin, I do believe it 
would have probably been more like 50-50 had it not been for 
the whole Congressional interference discussion that went on 
around it. I actually know people who voted against the 
initiative even though they favor the death penalty because of 
the Congressional mandate that required us to deal with the 
issue. So you have to realize, in any discussion that takes 
place in D.C., you--the Congress--can make or break it by what 
you do up here.
    Now, here is where I am going to bring in my true story. I 
came back from Officer Gibson's funeral on February 10 and I 
was very emotionally disturbed by that, as I am with each of 
these tragic deaths we face in our city. I walked into my 
office and I said to my staff, I am going to commit political 
suicide in this town, and you have to realize, most of my staff 
are against what I was proposing, but I said, I am going to 
commit political suicide, but I feel strongly enough about this 
issue that I want to propose legislation which would provide 
for the death penalty for those who kill law enforcement 
officers. That was on February 10, right after the funeral.
    About an hour and a half later, one of my staff members 
knocked on my door and said that Kay Bailey Hutchison just 
offered a bill in the U.S. Senate to impose the death penalty 
for those who kill police. I said, oh, shoot. I actually said 
something a little stronger than that, which I will not relate 
here, but I thought, oh, darn. Here goes any chance that I 
might have to get a local discussion going on this very 
important issue without having the whole discussion of Congress 
getting itself involved. So I put it on the back burner.
    Then as the days and weeks went on, I started getting 
really mad, because I hate it when Congress tells me what to 
do, and if you were in our shoes, you would feel the same way, 
and I want to say just one thing on that. You mentioned that 
Senator Hutchison, I think, made a good point today when she 
said that the Congress is the District's State and States tell 
local jurisdictions what to do.
    But the difference is, in States that are telling local 
jurisdictions what to do, those local jurisdictions have a vote 
in their State legislatures, so they have representation. We do 
not have voting representation in our ``State,'' the U.S. 
Congress, and that is a big inequity which has been long, very 
hurtful, and legitimately hurtful in our citizens' feelings 
about you all looking out for us.
    But anyway, I put this on the back burner because I 
thought, there goes any opportunity we will have for this 
discussion, which I favor. I probably favor it as passionately 
as Senator Hutchison or each of you favors it. And yet, I 
wanted to see that local discussion, even though I knew it was 
not a popular one here in my home town.
    As the days and weeks went by, I started thinking, as much 
as I hate Congress telling me what to do, I also equally hated 
it that I was allowing Congress, my feelings about Congress, to 
keep me from doing what I wanted to do. So then I started 
talking to the Mayor and we came out on our own.
    I do think it is interesting that Marion Barry and I, who 
between the two of us, in 1994 got 98 percent of the vote for 
Mayor. He got 56 percent. I got 42 percent. We have come out 
together on this same issue. I wish Congress would back off 
long enough for us to have a real good local discussion on this 
without the hammer over the head of a July date or a blank 
date.
    Senator Brownback. Ms. Schwartz, what length of time is, 
then, reasonable for you to have a real discussion about this? 
What would it be?
    Ms. Schwartz. I understand from the Chair of the Judiciary 
Committee that he does plan to hold a hearing on this issue in 
June. It is possible for the Council to either vote it up or 
down by July, but I doubt if that will be the case because I do 
not think necessarily the votes are there, so it is not going 
to be pushed very strongly.
    I, then, would consider doing an initiative, a locally 
initiated initiative on this issue where the voters could speak 
if the Council does not do it. That does take some time. You 
have to get an initiative on the ballot. You have to get all 
the signatures that are needed and then there would have to be 
an election, and we are having some special elections coming 
up.
    So I would say the end of the year is far more reasonable 
than the July date. But there again, I deeply regret the hammer 
that I felt Senator Hutchison put over our head today, that if 
you do not do this by July, we are going to do it. Now, all of 
a sudden, this good local debate is now going to get refocused 
away from what it should be focused on and back up here to the 
U.S. Congress.
    Senator Brownback. I hope you will go ahead and conduct a 
local debate in spite of the background noise in the U.S. 
Congress, but that you will have a good local debate on it.
    Dr. Hicks, could I ask you, and I understand from your 
written testimony your position and the heartfeltness of that 
position, from you putting that forward in writing in your 
comments. Let me ask you, though, what creates in our culture a 
situation, the same thing I have asked these other people, 
where we have had three police officers stalked and killed in 
the District in 4 months. Is there something that can be done 
to change that culture? You disagree with one answer here. What 
else is there?
    Rev. Hicks. My disagreement is primarily with the death 
penalty as an answer to the pathology. I am not sure that any 
of us have a total solution to it. We heard testimony earlier 
with regard to the change that needs to be made in the 
educational system, which speaks to the issue of trying to 
bring about civility as a matter of changing persons' moral 
behavior.
    I represent a particular philosophy of life which says that 
we are able within the church to shape people's minds and to 
mold behaviors. We also believe that parents in their homes 
have a great responsibility to mold the moral values of 
children, and, therefore, to control their behaviors.
    Nevertheless, the reality is that our culture is of such--
in fact, we live in a culture of violence. We not only have the 
``Beavis and Buttheads'' that are on television and ``The 
Simpsons'' and all of the rest which espouse incivility, which 
espouse the kinds of behavior which are certainly anti-social. 
We have developed a whole mindset within this country that says 
that killing and murder and death are something that are to be 
accepted within the society.
    That is why every movie that comes out from Hollywood 
supports it. That is why almost everything we watch on 
television applauds it. That is why we spend billions upon 
billions of dollars within the U.S. Senate and the House of 
Representatives in order to manufacture weapons of war and 
death. And while I understand the necessity to protect the 
land, at the same time, we have sent out another message to the 
entirety of the world that we will be a people who live by the 
instruments of death.
    I say to Council Member Schwartz, we are not in a position 
where we can accept either suicide or homicide. Neither is an 
acceptable alternative. The issue within the District of 
Columbia is that the District residents have already held 
discussions on this issue and have already exercised their 
right to vote by telling us that they are, in fact, opposed to 
the death penalty, that, in fact, they are opposed to the 
manufacture of semi-automatic weapons.
    The reality is that we can debate this ad nauseam and we 
still will come up with the same response, because I thoroughly 
reject the idea that the only reason why the death penalty 
issue was rejected by the citizens of the District of Columbia 
had to do with the fact that Congress was intervening. Of 
course, that was a part of the process, but at the same time, 
underneath everything that you see in Washington, D.C. are a 
people who are civil, are people who are moral, are people who 
are law abiding, are people who are church going and who are 
God believing and who, therefore, reject on a moral ground this 
whole idea of a death penalty as a means of exercising control 
over whatever anti-social behavior there is within the 
community.
    It simply seems to me that we need to find other ways to 
correct the social ills that bring about the problems that we 
have. Do I have a crystal ball that will tell you what that 
will be? Obviously not, but we must work together in order to 
be agents of life and not the agents of death.
    Senator Brownback. You make a very passionate and very 
clear and good response. Studies certainly support the concept 
that capital punishment, while it may be beneficial, it may 
not, I mean, they do go back and forth on it, and I do not hold 
it as the ``be all and end all'' answer to a culture that 
tolerates this sort of situation. Yet, we are all groping. You 
cannot let this type of activity continue.
    Rev. Hicks. Nor can you permit it to be a knee-jerk 
reaction to the fact that we have had three deaths, which are 
regrettable, and we understand that and our hearts go out to 
the families. Nevertheless, there are countless others. The 
body bags are not just of police officers. The body bags are of 
butchers or of bakers, of children, of parents, of grandparents 
who have been taken away to the morgue by the same kind of 
insanity.
    So the solution is not to respond to the needs of one 
segment of the population, but to the entirety of the issue.
    Senator Brownback. Then what do we do?
    Rev. Hicks. We have got to attack it on all fronts. We 
cannot attack it in this one manner. If this one manner were to 
solve the issue, then I would agree with you, but it will not. 
It must be a comprehensive response to the problem and not an 
isolated response.
    Senator Brownback. When you can identify the specifics of 
our comprehensive response, or maybe you will be willing to 
look at the package of ideas that we will put forward for the 
District of Columbia, for the schools and for the areas of 
crime and for the areas of economic growth and development and 
for the overall areas of what we can do to revitalize this 
system.
    But, you know, there is one thing we cannot do here from 
Congress. There are many things we cannot do from here in 
Congress, and that is really work on the soul. That ultimately 
is where we get at, and I hope you are having a great growth 
and revival taking place in your church and throughout this 
community because that is your job and not ours, and----
    Rev. Hicks. It is a matter of soul, but sometimes it is 
also a matter of some real mundane kinds of things. In other 
words, we see that in the District, for instance, that the 
money for the youth program for the summer has been cut out and 
it looks as though we will not be able to have that money. The 
one program that we had in this city that was about the 
business of trying to save the lives of young people in the 
District of Columbia is now being ripped apart, primarily 
because of the initiatives by the Control Board and others to 
bring the city back into line financially. I understand that.
    At the same time, we are being asked in the churches to 
then take the young people and find something to do with them 
in order to give them the kind of support that they will need. 
These children are about to be put back out on the street, 
where they need to be employed, they need to be in churches, 
they need to be in synagogues, they need to be in other kinds 
of agencies where they can be trained and where they can be 
taught the lessons of civility.
    But if the very foundation upon which we are seeking to 
build is destroyed and is taken from us, then I am afraid, 
Senator, that we will find that our problems will be 
exacerbated rather than relieved.
    Senator Brownback. Thank you for your testimony, and both 
of you, as well.
    I thank everyone for attending. I appreciate it and we will 
have further hearings on the District of Columbia. The hearing 
is adjourned.
    [Whereupon, at 4:35 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] TH345.001

[GRAPHIC] [TIFF OMITTED] TH345.002

[GRAPHIC] [TIFF OMITTED] TH345.003

[GRAPHIC] [TIFF OMITTED] TH345.004

[GRAPHIC] [TIFF OMITTED] TH345.005

[GRAPHIC] [TIFF OMITTED] TH345.006

[GRAPHIC] [TIFF OMITTED] TH345.007

[GRAPHIC] [TIFF OMITTED] TH345.008

[GRAPHIC] [TIFF OMITTED] TH345.009

[GRAPHIC] [TIFF OMITTED] TH345.010

[GRAPHIC] [TIFF OMITTED] TH345.011

[GRAPHIC] [TIFF OMITTED] TH345.012

[GRAPHIC] [TIFF OMITTED] TH345.013

[GRAPHIC] [TIFF OMITTED] TH345.014

[GRAPHIC] [TIFF OMITTED] TH345.015

[GRAPHIC] [TIFF OMITTED] TH345.016

[GRAPHIC] [TIFF OMITTED] TH345.017

[GRAPHIC] [TIFF OMITTED] TH345.018

[GRAPHIC] [TIFF OMITTED] TH345.019

[GRAPHIC] [TIFF OMITTED] TH345.020

[GRAPHIC] [TIFF OMITTED] TH345.021

[GRAPHIC] [TIFF OMITTED] TH345.022

[GRAPHIC] [TIFF OMITTED] TH345.023

[GRAPHIC] [TIFF OMITTED] TH345.024

[GRAPHIC] [TIFF OMITTED] TH345.025

[GRAPHIC] [TIFF OMITTED] TH345.026

[GRAPHIC] [TIFF OMITTED] TH345.027

[GRAPHIC] [TIFF OMITTED] TH345.028

[GRAPHIC] [TIFF OMITTED] TH345.029

[GRAPHIC] [TIFF OMITTED] TH345.030

[GRAPHIC] [TIFF OMITTED] TH345.031

[GRAPHIC] [TIFF OMITTED] TH345.032

[GRAPHIC] [TIFF OMITTED] TH345.033

[GRAPHIC] [TIFF OMITTED] TH345.034

[GRAPHIC] [TIFF OMITTED] TH345.035

[GRAPHIC] [TIFF OMITTED] TH345.036

[GRAPHIC] [TIFF OMITTED] TH345.037

[GRAPHIC] [TIFF OMITTED] TH345.038

[GRAPHIC] [TIFF OMITTED] TH345.039

[GRAPHIC] [TIFF OMITTED] TH345.040

[GRAPHIC] [TIFF OMITTED] TH345.041

[GRAPHIC] [TIFF OMITTED] TH345.042

[GRAPHIC] [TIFF OMITTED] TH345.043

[GRAPHIC] [TIFF OMITTED] TH345.044

[GRAPHIC] [TIFF OMITTED] TH345.045

[GRAPHIC] [TIFF OMITTED] TH345.046

[GRAPHIC] [TIFF OMITTED] TH345.047

[GRAPHIC] [TIFF OMITTED] TH345.048

[GRAPHIC] [TIFF OMITTED] TH345.049

[GRAPHIC] [TIFF OMITTED] TH345.050

[GRAPHIC] [TIFF OMITTED] TH345.051

[GRAPHIC] [TIFF OMITTED] TH345.052

[GRAPHIC] [TIFF OMITTED] TH345.053

[GRAPHIC] [TIFF OMITTED] TH345.054

[GRAPHIC] [TIFF OMITTED] TH345.055

[GRAPHIC] [TIFF OMITTED] TH345.056

[GRAPHIC] [TIFF OMITTED] TH345.057

[GRAPHIC] [TIFF OMITTED] TH345.058

[GRAPHIC] [TIFF OMITTED] TH345.059

[GRAPHIC] [TIFF OMITTED] TH345.060

[GRAPHIC] [TIFF OMITTED] TH345.061

[GRAPHIC] [TIFF OMITTED] TH345.062

[GRAPHIC] [TIFF OMITTED] TH345.063

[GRAPHIC] [TIFF OMITTED] TH345.064

[GRAPHIC] [TIFF OMITTED] TH345.065

[GRAPHIC] [TIFF OMITTED] TH345.066

[GRAPHIC] [TIFF OMITTED] TH345.067

[GRAPHIC] [TIFF OMITTED] TH345.068

[GRAPHIC] [TIFF OMITTED] TH345.069

[GRAPHIC] [TIFF OMITTED] TH345.070

[GRAPHIC] [TIFF OMITTED] TH345.071

[GRAPHIC] [TIFF OMITTED] TH345.072

[GRAPHIC] [TIFF OMITTED] TH345.073

[GRAPHIC] [TIFF OMITTED] TH345.074

[GRAPHIC] [TIFF OMITTED] TH345.075

[GRAPHIC] [TIFF OMITTED] TH345.076

[GRAPHIC] [TIFF OMITTED] TH345.077

[GRAPHIC] [TIFF OMITTED] TH345.078

[GRAPHIC] [TIFF OMITTED] TH345.079

[GRAPHIC] [TIFF OMITTED] TH345.080

[GRAPHIC] [TIFF OMITTED] TH345.081

[GRAPHIC] [TIFF OMITTED] TH345.082

[GRAPHIC] [TIFF OMITTED] TH345.083

[GRAPHIC] [TIFF OMITTED] TH345.084

[GRAPHIC] [TIFF OMITTED] TH345.085

[GRAPHIC] [TIFF OMITTED] TH345.086

[GRAPHIC] [TIFF OMITTED] TH345.087

[GRAPHIC] [TIFF OMITTED] TH345.088

[GRAPHIC] [TIFF OMITTED] TH345.089

[GRAPHIC] [TIFF OMITTED] TH345.090

[GRAPHIC] [TIFF OMITTED] TH345.091

[GRAPHIC] [TIFF OMITTED] TH345.092

[GRAPHIC] [TIFF OMITTED] TH345.093

[GRAPHIC] [TIFF OMITTED] TH345.094

[GRAPHIC] [TIFF OMITTED] TH345.095

[GRAPHIC] [TIFF OMITTED] TH345.096

[GRAPHIC] [TIFF OMITTED] TH345.097

[GRAPHIC] [TIFF OMITTED] TH345.098

[GRAPHIC] [TIFF OMITTED] TH345.099

[GRAPHIC] [TIFF OMITTED] TH345.100

[GRAPHIC] [TIFF OMITTED] TH345.101

[GRAPHIC] [TIFF OMITTED] TH345.102

[GRAPHIC] [TIFF OMITTED] TH345.103

[GRAPHIC] [TIFF OMITTED] TH345.104

[GRAPHIC] [TIFF OMITTED] TH345.105

[GRAPHIC] [TIFF OMITTED] TH345.106

[GRAPHIC] [TIFF OMITTED] TH345.107

[GRAPHIC] [TIFF OMITTED] TH345.108

[GRAPHIC] [TIFF OMITTED] TH345.109

[GRAPHIC] [TIFF OMITTED] TH345.110

[GRAPHIC] [TIFF OMITTED] TH345.111

[GRAPHIC] [TIFF OMITTED] TH345.112

[GRAPHIC] [TIFF OMITTED] TH345.113

[GRAPHIC] [TIFF OMITTED] TH345.114

[GRAPHIC] [TIFF OMITTED] TH345.115

[GRAPHIC] [TIFF OMITTED] TH345.116

[GRAPHIC] [TIFF OMITTED] TH345.117

[GRAPHIC] [TIFF OMITTED] TH345.118

[GRAPHIC] [TIFF OMITTED] TH345.119

[GRAPHIC] [TIFF OMITTED] TH345.120


                                  <all>
</pre></body></html>
